<html>
<title> - LEGISLATIVE HEARING ON H.R. 156, H.R. 585, AND H.R. 704</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




                         LEGISLATIVE HEARING ON
                    H.R. 156, H.R. 585, AND H.R. 704

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON DISABILITY ASSISTANCE
                          AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 19, 2007

                               __________

                           Serial No. 110-28

                               __________

       Printed for the use of the Committee on Veterans' Affairs









                        U.S. GOVERNMENT PRITNING OFFICE

37-466                         WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001


























                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     RICHARD H. BAKER, Louisiana
Dakota                               HENRY E. BROWN, Jr., South 
HARRY E. MITCHELL, Arizona           Carolina
JOHN J. HALL, New York               JEFF MILLER, Florida
PHIL HARE, Illinois                  JOHN BOOZMAN, Arkansas
MICHAEL F. DOYLE, Pennsylvania       GINNY BROWN-WAITE, Florida
SHELLEY BERKLEY, Nevada              MICHAEL R. TURNER, Ohio
JOHN T. SALAZAR, Colorado            BRIAN P. BILBRAY, California
CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado
JOE DONNELLY, Indiana                GUS M. BILIRAKIS, Florida
JERRY McNERNEY, California           VERN BUCHANAN, Florida
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota

                   Malcom A. Shorter, Staff Director

                                 ______

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JOHN J. HALL, New York, Chairman

CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado, Ranking
PHIL HARE, Illinois                  MICHAEL R. TURNER, Ohio
SHELLEY BERKLEY, Nevada              GUS M. BILIRAKIS, Florida

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.

























                            C O N T E N T S

                               __________

                             June 19, 2007

                                                                   Page
Legislative Hearing on H.R. 156, H.R. 585, and H.R. 704..........     1

                           OPENING STATEMENTS

Chairman John J. Hall............................................     1
    Prepared statement of Chairman Hall..........................    30
Hon. Doug Lamborn, Ranking Republican Member, prepared statement 
  of.............................................................    31
Hon. Gus M. Bilirakis............................................     3
    Prepared statement of Congressman Bilirakis..................    31
Hon. Stephanie Herseth Sandlin...................................     4

                               WITNESSES

U.S. Department of Veterans Affairs, Jack McCoy, Associate Deputy 
  Under Secretary for Policy and Program Management, Veterans 
  Benefits Administration........................................    25
    Prepared statement of Mr. McCoy..............................    41

                                 ______

American Ex-Prisoners of War, Norman Bussel, National Service 
  Officer........................................................     7
    Prepared statement of Mr. Bussel.............................    33
American Legion, Steve Smithson, Deputy Director for Claims 
  Services, Veterans Affairs and Rehabilitation Commission.......    12
    Prepared statement of Mr. Smithson...........................    36
American Veterans (AMVETS), Jim King, Executive Director.........     9
    Prepared statement of Mr. King...............................    34
Gold Star Wives of America, Inc., Vivianne Cisneros Wersel, 
  Member, Government Relations Committee.........................    13
    Prepared statement of Ms. Wersel.............................    37
Holden, Hon. Tim, a Representative in Congress from the State of 
  Pennsylvania...................................................     5
    Prepared statement of Congressman Holden.....................    32
Iraq and Afghanistan Veterans of America, Todd Bowers, Director 
  of Government Affairs..........................................    18
    Prepared statement of Mr. Bowers.............................    40
Vietnam Veterans of America, Sharon Hodge, Associate Director of 
  Government Affairs.............................................    10
    Prepared statement of Ms. Hodge..............................    34
Wounded Warrior Project, Meredith Beck, National Policy Director.    16
    Prepared statement of Ms. Beck...............................    38

                       SUBMISSIONS FOR THE RECORD

Paralyzed Veterans of America, statement.........................    42
Veterans of Foreign Wars of the United States, Eric A. Hilleman, 
  Deputy Director, National Legislative Service, statement.......    43
Walenchok McElhaney, Patricia, Niceville, FL, statement..........    44

                   MATERIAL SUBMITTED FOR THE RECORD

Newspaper Article:
    ``Mistreated Casualties,'' The Washington Post, June 19, 2007 
      (Editorial Section, p. A16)................................    46
Post-Hearing Questions and Responses for the Record, and 
    Administration Views:
    Hon. John J. Hall, Chairman, Subcommittee on Disability 
      Assistance and Memorial Affairs, to Jack McCoy, Associate 
      Deputy Under Secretary for Policy and Program Management, 
      Veterans Benefits Administration, U.S. Department of 
      Veterans Affairs, questions dated June 19, 2007............    47
    Hon. Gordon H. Mansfield, Acting Secretary, U.S. Department 
      of Veterans Affairs, to Hon. Bob Filner, Chairman, 
      Committee on Veterans' Affairs, letter dated October 26, 
      2007, transmitting Administration's views and estimates for 
      H.R. 704, H.R. 2259, and H.R. 1824.........................    50



















 
                         LEGISLATIVE HEARING ON
                    H.R. 156, H.R. 585, AND H.R. 704

                              ----------                              


                         TUESDAY, JUNE 19, 2007

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Disability Assistance
                                      and Memorial Affairs,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2:05 p.m., in 
Room 334, Cannon House Office Building, Hon. John J. Hall 
[Chairman of the Subcommittee] presiding.

    Present: Representatives Hall, Hare, Rodriguez, Lamborn, 
Bilirakis.

               OPENING STATEMENT OF CHAIRMAN HALL

    Mr. Hall. Good morning, or should I say good afternoon, 
everyone.
    I would ask for us to rise for the Pledge of Allegiance. 
Flags are in the front and the back of the room.
    [Pledge of Allegiance.]
    The Subcommittee on Disability Assistance and Memorial 
Affairs is called to order. We will be holding a legislative 
hearing on 
H.R. 156, H.R. 585, and H.R. 704.
    We have one unanimous consent request which is that, when 
she arrives, Representative Herseth Sandlin be allowed to 
testify from the dais if that is okay. She is on the full 
Committee, but not on this Subcommittee, and she is not able to 
actually be here for a little while yet due to a double 
booking.
    Several of us have more than one Committee meeting 
happening at the same time, so we will be coming and going, but 
that does not mean that we are not anxious to hear your 
testimony on these noncontroversial but critical bills.
    I want to thank Mr. Holden for appearing before our 
Subcommittee to present testimony on his bill, H.R. 156, which 
would change the date of eligibility for Dependency and 
Indemnity Compensation (DIC) payments to survivors of former 
prisoners of war 
(POWs) to include those POWs who died before September 30, 1999.

    Current DIC payments for survivors of POWs are only payable 
to these POWs who died after September 30, 1999. This bill 
would correct this inexplicable inequity.
    I am proud to have one of my constituents from my district 
here today, Mr. Norman Bussel, past President of the American 
Ex-Prisoners of War Service Foundation, to testify in support 
of this legislation.
    Welcome, Mr. Bussel, and thank you again for being here to 
offer your insight as a former POW. Thank you for your service 
to our country.
    As with all mandatory spending, we will have to find the 
offsets to pay for this change in order to comply with PAYGO 
rules adopted at the beginning of this Congress. However, as 
the number of qualifying spouses has dwindled, I hope that we 
will be able to work in a bipartisan manner to help find the 
funding to assist this population of mostly widows.
    The second bill under consideration today, H.R. 704, 
sponsored by Mr. Bilirakis also would affect the DIC programs. 
His bill would change the age of remarriage for surviving 
spouses from 57 to 55. Currently, if a surviving spouse 
remarries before age 57, the DIC payments cease automatically. 
This is a harsh result for surviving spouses who have 
sacrificed and lost so much.
    As Mr. Bilirakis will surely point out, changing the age of 
remarriage from 57 to 55 will also bring this provision in line 
with several other Federal survivors programs, particularly the 
Military Survivor Benefit Plan.
    Here he is, Mr. Bilirakis himself. Good to see you, sir. I 
know this bill enjoys wide support and I certainly support its 
concept of allowing love to flourish for these survivors in 
their later years without penalty.
    And lastly we will consider H.R. 585, sponsored by 
Congresswoman Herseth Sandlin, Chair of the Economic 
Opportunity Subcommittee, which would change the retroactive 
provisions of the Traumatic Servicemembers' Group Life 
Insurance (TSGLI) program to allow those servicemembers injured 
outside of Iraq and Afghanistan between October 7, 2001, and 
November 30, 2005, to qualify for coverage.
    Currently, only those who physically served in these combat 
areas qualify. Since December 1, 2005, all servicemembers who 
participate in the SGLI program are automatically covered with 
TSGLI no matter where they physically served and, thus, no fix 
is needed for these servicemembers at this time.
    The TSGLI program is intended to provide short-term help to 
the families of severely injured servicemembers to help with 
incurred expenses and to help them and their families recover 
from their injuries.
    In my own State of New York, 118 servicemembers have 
benefited from this program and the average payment is $61,229. 
In Colorado, 112 servicemembers received payment which averaged 
$58,482.
    To date, the total number of TSGLI cases paid is 3,266 
totaling $206,230,000. The average payout is $63,158. Surely 
many qualifying servicemembers and their families would benefit 
from this legislative fix and I wholeheartedly support it.
    During times of war, all servicemembers offer the same gift 
to our country, their selfless service in our Armed Forces to 
defend our Nation. Each of their lives is valuable and 
potentially at risk no matter what or where the duty assignment 
may be. This bill, by making this small but substantive change, 
would recognize that truth.
    Lastly, I look forward to hearing from the U.S. Department 
of Veterans Affairs (VA) on its updated views on these bills.
    I would now like to recognize Mr. Bilirakis to make a 
statement for himself or for Ranking Member Lamborn.
    [The prepared statement of Chairman Hall appears on p. 30.]

           OPENING STATEMENT OF HON. GUS M. BILIRAKIS

    Mr. Bilirakis. Actually, this will be for Ranking Member 
Lamborn. Thank you very much, Mr. Chairman. I appreciate it 
very much.
    Thank you, Mr. Chairman, for recognizing me. I look forward 
to hearing the views of our witnesses and our colleagues on the 
legislation before us.
    Our first bill is H.R. 156 and it provides Dependency and 
Indemnity Compensation payments to the survivors of veterans 
rated totally disabled at the time of death who were former 
prisoners of war.
    This bill lifts the payment restriction on families of 
those veterans who died after September 30, 1999. I know my dad 
worked on this piece of legislation for years and I strongly 
support it.
    In reading some of the testimony, it seems that there are 
less than 850 families that would qualify for this legislation, 
thus making it the least costly of the three.
    Our second bill, which is H.R. 585, would extend 
retroactive payments under the Traumatic Servicemembers' Group 
Life Insurance program to those servicemembers who were wounded 
outside of the theater of operations in Iraq and Afghanistan.
    This legislation has merit because any time a servicemember 
is seriously injured and would otherwise qualify for TSGLI, it 
should not matter where the traumatic injury occurred. And I 
certainly agree with that.
    Our last bill, H.R. 704, of which I am the sponsor, would 
dispense with the restriction of DIC payments to survivors who 
remarry before age 57 and allows them to keep their DIC payment 
if they remarry after age 55.
    So, Mr. Chairman, that is my explanation. I believe Doug 
does too, but I do not want to speak for him, but I personally 
support all three bills strongly.
    [The prepared statement of Congressman Bilirakis appears on 

p. 31.]
    Mr. Hall. Thank you, Mr. Bilirakis.
    And before we go on to hear from Mr. Holden, who is our 
first panel--he is so powerful, he can be a whole panel by 
himself--I just wanted to offer into the record as part of our 
ongoing discussions the editorial from the Washington Post 
today, headlined Mistreated Casualties, about their analysis of 
the current functioning and/or dysfunction at the Department of 
Veterans Affairs and how it can be improved. And I think some 
of the things that we are working on right now are all designed 
to do that. So it is on the first editorial page.
    [The article referenced by Chairman Hall, ``Mistreated 
Casualties,'' The Washington Post, June 19, 2007, appears on p. 
46.]
    Ms. Herseth Sandlin is present now and we will recognize 
her for a statement.

      OPENING STATEMENT OF HON. STEPHANIE HERSETH SANDLIN

    Ms. Herseth Sandlin. Well, thank you very much, Chairman 
Hall, and to the Ranking Member, for the opportunity to be part 
of your hearing today. I thank you for the hearing and 
including H.R. 585 in today's hearing. It is a bill that I 
introduced January 19, 2007, to expand the Traumatic 
Servicemembers' Group Life Insurance program to certain 
servicemembers who do not currently qualify for the program's 
retroactive payments.
    Implemented on December 1, 2005, the TSGLI is a traumatic 
injury protection rider under the Servicemembers' Group Life 
Insurance program that provides for payment to any member of 
the uniformed services who sustains a traumatic injury that 
results in certain severe losses.
    In addition to covering all active-duty servicemembers who 
incur injuries after December 1, 2005, the program makes 
retroactive payments to servicemembers who incurred injuries 
since October 7, 2001, in Operation Enduring Freedom (OEF) and 
Operation Iraqi Freedom (OIF).
    In most cases, the insurance program operates as the 
intended financial link from the time of injury until the 
soldier is eligible for VA benefits. However, by defining ``in 
Operations Enduring Freedom or Iraqi Freedom'' as a requirement 
for retroactive benefits, the regulation has disqualified a 
number of traumatically injured servicemembers from payment 
based solely on their location at the time of their injury.
    An example of a servicemember who would benefit from H.R. 
585 is Seaman Robert Roeder who was injured in January 2005 
when a cable on the aircraft carrier USS Kitty Hawk removed his 
leg below the knee. The USS Kitty Hawk was training for 
missions in Iraq or Afghanistan. However, because his injury 
occurred before the TSGLI legislation was passed and outside of 
OIF or OEF, he does not qualify for payment.
    In addition to Seaman Robert Roeder, approximately 700 
other veterans would benefit from passage of H.R. 585. These 
service men and women have been denied the same retroactive 
payment given to their wounded comrades simply because they 
were wounded outside OEF or OIF.
    My legislation would ensure that all servicemembers wounded 
since the beginning of the War on Terrorism will receive 
payments for their injuries.
    I would like to thank the Wounded Warrior Project for their 
work in helping bring this problem to my attention and for 
their work on behalf of our Nation's wounded veterans.
    I also want to thank Senator Craig who has been a leading 
advocate of this issue and has introduced companion legislation 
in the Senate.
    So thank you again, Chairman Hall and Ranking Member 
Bilirakis, for allowing me the opportunity to speak today, and 
I look forward to working with you as we move this important 
bill forward.
    Mr. Hall. Thank you very much, Congresswoman.
    I would ask our other Members if you would not mind, since 
we have Mr. Holden waiting to testify, if you could wait for 
statements or questions, so that we can move to his testimony. 
I now recognize the Honorable Tim Holden from Pennsylvania, 
17th District, to testify on H.R. 156.
    Mr. Holden, welcome.

STATEMENT OF HON. TIM HOLDEN, A REPRESENTATIVE IN CONGRESS FROM 
                   THE STATE OF PENNSYLVANIA

    Mr. Holden. Thank you, Chairman Hall and Mr. Bilirakis and 
Members of the Subcommittee, for the opportunity to testify 
before you today in support of H.R. 156 which seeks to correct 
the inequity or, as the Chairman said, inexplicable inequity in 
the awarding of Dependency and Indemnity Compensation benefits 
to surviving spouses of qualifying former prisoners of war.
    Current law provides DIC benefits for surviving spouses of 
former prisoners of war who were rated as totally disabled for 
service-connected disability at the time of death so long as 
that former POW passes away after September 30, 1999.
    However, surviving spouses of qualifying former POWs who 
passed away before or on September 30, 1999, do not qualify for 
any DIC benefits unless the former POW died of a service-
connected disability or was 100 percent service-connected for 
at least 10 years prior to their death.
    Prior to 1999, all surviving spouses of qualifying former 
POWs were eligible for DIC benefits so long as the former POW 
was rated 100 percent disabled for a minimum of 10 years prior 
to his or her death.
    Since many POWs had difficulty in establishing their 
eligibility for service-connected compensation benefits until 
after Congress established certain presumptions, many POWs died 
while being 100 percent service-connected for less than 10 
years. That problem was addressed by the ``Veterans Millennium 
Healthcare Act of 1999'' which allowed surviving spouses to 
qualify if their POW spouse was service-connected for 1 year 
before death and died after September 30, 1999.
    Not too long after the ``Veterans Millennium Healthcare 
Act'' was enacted, Mr. Leigh Tallas, a veteran and advocate 
from one of the county VA offices in my congressional district, 
contacted me to express his concern with the consequence of 
limiting the awarding of benefits only in the case where the 
qualifying former POW died after September 30, 1999. He told me 
about an active case he was working on where the surviving 
spouse was being penalized due to this provision.
    Following my meeting with Mr. Tallas, I first introduced 
this legislation you are considering today in the 107th 
Congress and reintroduced it in each subsequent Congress.
    Mr. Chairman, the change my bill seeks to do is very simple 
and straightforward. This bill will amend Title 38 of the U.S. 
Code to treat all surviving spouses of qualifying former POWs 
equally, granting them DIC benefits regardless of when their 
former POW spouse passed away.
    While I was unable to secure a score from the Congressional 
Budget Office (CBO) in the 110th Congress, CBO estimated in 
2003 that about 480 survivors would be newly eligible for DIC 
under an identical bill. This would have cost $15 million 
during the 10-year period from fiscal year 2004 through fiscal 
year 2013. The cost would be slightly greater today as DIC 
payments are adjusted annually for increases in the cost of 
living.
    Mr. Chairman, I thank you for the opportunity to come 
before you today and testify on this legislation that I think 
is very important to our veterans, but particularly to 
surviving spouses of POWs. And I would be willing to answer any 
questions that the Chair or the Members of the Subcommittee 
might have.
    [The prepared statement of Mr. Holden appears on p. 32.]
    Mr. Hall. Thank you, Mr. Holden.
    It seems to make eminent sense to me as your statement says 
to treat surviving spouses of all qualifying former POWs 
equally.
    I have no questions, other than the figure of 480 survivors 
that was given by CBO in 2003. You say that no more than a 
third or about 160 of these would be eligible under the bill. I 
assume that for every year that goes by that number drops. What 
we are talking about here is catching the last of those who 
have been unjustly 
ignored so far and providing for them for the remainder of their
 lives.
    Mr. Holden. You are correct, Mr. Chairman, that number 
would decrease. But the cost of living adjustments would make 
the number not 100 percent accurate from the last time we had 
it scored.
    Mr. Hall. Right. Okay.
    Mr. Bilirakis, would you like to ask Mr. Holden any 
questions?
    Mr. Bilirakis. I do not really have any questions, but I am 
strongly behind this bill. As a matter of fact, we had some 
constituents, actually my dad's constituents at the time, but I 
was also representing that area in the legislature, and I 
believe Wayne Hitchcock was the National Commander of the POWs 
and his wife who had just passed away, let us pass this in 
their memory. Thank you.
    Mr. Hall. Mr. Hare, do you have a statement or question?
    Mr. Hare. No questions. I just want to thank you, Mr. 
Holden, for your tenacity and staying with this. It is a great 
bill.
    All three of these are from our perspective. What we have 
been trying to do here, and I think very well, is to honor the 
sacrifice and commitment our veterans have made.
    And this bill certainly goes a long way toward helping the 
spouses. It is just too bad it has taken us this long to get 
here, but I promise you we will do everything we can to get 
this bill out and 
get it on the floor, get it passed, and get some fairness back i
nto this.
    So thanks very much.
    Mr. Holden. Thank you.
    Mr. Hare. Thank you very much, Mr. Bilirakis, for your 
bill. I think it is a tremendous piece of legislation. And, 
again, we just have to keep plugging hard here, but I think we 
have made great progress for our Nation's veterans, but we have 
a lot more work to do.
    So thank you very much, Mr. Chairman.
    Mr. Hall. Thank you.
    Mr. Rodriguez.
    Mr. Rodriguez. Let me just say that I am elated because I 
have been on this Committee for some time now and for the 
longest time, we could not pull these off. So I want to 
congratulate you for staying there and doing the right thing. 
And hopefully we will get this thing out there and some of the 
other bills that are online that we should have done a long 
time ago.
    Congratulations, Congressman.
    Mr. Hall. Thank you, Mr. Holden. I appreciate your work on 
this bill. There are no further questions.
    Mr. Holden. Thank you, Mr. Chairman.
    Mr. Hall. You are excused.
    Mr. Holden. Thank you, Members of the Subcommittee, for 
your attention. Thank you.
    Mr. Hall. Our pleasure.
    And panel two will now be invited to the table, recognizing 
Norman Bussel, National Service Officer of the American Ex- 
Prisoners of War Service Foundation; Jim King, Executive Direc- 

tor of the American Veterans, AMVETS; Sharon Hodge, Associate 
Director of Government Affairs, Vietnam Veterans of America; 
Steve Smithson, Deputy Director for Claims Services, Veterans 
Affairs and Rehabilitation Commission from the American Legion; 
Vivianne Cisneros Wersel, Member of the Government Relations 
Committee, Gold Star Wives of America; Meredith Beck, National 
Policy Director for the Wounded Warrior Project; and Todd 
Bowers, Director of Government Affairs for the Iraq and 
Afghanistan Veterans of America. Thank you all for being here 
and the Chair first recognizes Mr. Norman Bussel, who happens 
to be from my district and I welcome you here, sir. Thank you. 
Thank you all for your service. We will recognize Mr. Bussel 
for 5 minutes. Your written statement will be entered in the 
record if you want to deviate. Push the button on that 
microphone and get close to it if you can, please.

STATEMENTS OF NORMAN BUSSEL, NATIONAL SERVICE OFFICER, AMERICAN 
  EX-PRISONERS OF WAR; JIM KING, EXECUTIVE DIRECTOR, AMERICAN 
    VETERANS (AMVETS); SHARON HODGE, ASSOCIATE DIRECTOR OF 
    GOVERNMENT AFFAIRS, VIETNAM VETERANS OF AMERICA; STEVE 
SMITHSON, DEPUTY DIRECTOR FOR CLAIMS SERVICES, VETERANS AFFAIRS 
   AND REHABILITATION COMMISSION, AMERICAN LEGION; VIVIANNE 
 CISNEROS WERSEL, MEMBER, GOVERNMENT RELATIONS COMMITTEE, GOLD 
  STAR WIVES OF AMERICA, INC.; MEREDITH BECK, NATIONAL POLICY 
DIRECTOR, WOUNDED WARRIOR PROJECT; AND TODD BOWERS, DIRECTOR OF 
  GOVERNMENT AFFAIRS, IRAQ AND AFGHANISTAN VETERANS OF AMERICA

                   STATEMENT OF NORMAN BUSSEL

    Mr. Bussel. Chairman Hall and Members of the Subcommittee, 
I am a National Service Officer accredited by the Department of 
Veterans Affairs and I represent the American Ex-Prisoners of 
War organization. I am a volunteer and I assist veterans who 
wish to file claims for service-connected disabilities.
    As a member of a B-17 bomber crew, I bailed out over Berlin 
on April 29, 1944. Four members of my crew, as close to me as 
my brother, died on that mission and I became a POW for just 
over 1 year.
    I thank you for the opportunity to testify today. My 
comments will focus on H.R. 156 because time is so crucial to 
those whom this bill will affect. H.R. 156 is designed to 
correct an oversight that results in a hardship for some 
survivors of former prisoners of war.
    Prior to September 30, 1999, a POW must have died of a 
service-connected disability or have been rated 100 percent 
disabled for a minimum of 10 years, before his death for his 
spouse to qualify for Dependency and Indemnity Compensation 
benefits (DIC).
    When a bill was passed lowering the qualification period 
from 10 years to 1 year, it did not retroactively include those 
survivors of POWs who died before September 30, 1999. This is 
an inequity that passage of H.R. 156 will correct.
    What this involves is the plight of POW widows who are 
presently ineligible to file for DIC benefits because of a 
technicality, so let me explain why these survivors are so 
deserving of your consideration.
    When POWs return home, they left behind the barbed-wire 
fence that confined them, but they could not shake off the 
emotional baggage that would reshape their lives. Physical 
wounds heal--psychic wounds are forever. These are the wounds 
that plague our days, the wounds that haunt our nights, the 
wounds that torment our dreams.
    Our hope of picking up our lives where we left off was very 
difficult, because we were not the same people. Nobody 
understood what it was like to be beaten, starved, constantly 
threatened. Our families, neighbors, coworkers, even our mental 
health counselors couldn't comprehend the horrors we had 
endured.
    So we didn't talk about our problems, about our feelings. 
We sucked it up and tried to lead productive lives.
    The VA was not prepared to treat post-traumatic stress 
disorder (PTSD) back then. In fact, the term PTSD was not even 
coined until 1980. The sophisticated psychotropic drugs that 
help patients now were still waiting to be invented. For many 
POWs, the medication of choice became alcohol, which offered 
temporary relief today but even deeper depression tomorrow.
    Most of us went back to work or returned to school, got 
married and raised families. But we could not escape the POW 
curses of hypervigilance, flashbacks, nightmares, and 
irritability. And who was most affected by our aberrant 
behavior? Our wives, of course. At times, living with a POW can 
be a tremendous challenge. A POW friend calls POW wives ``Our 
Angels.'' And they are indeed. Without them, many of us would 
not have reached our eighties.
    Like all other husbands, POWs desire to leave their wives 
financially secure, but this is not always possible. Many of us 
were liable to achieve our earning potential because we could 
not control our psychological demons. POW wives often became 
the primary income producers in the household and because of 
the difference in earning power, some families lived from 
paycheck to paycheck.
    It wasn't until a few years ago, when I became a National 
Service Officer and began filing benefit claims for veterans 
and the survivors of veterans, that I became aware that some 
POW widows were in dire financial circumstances. A number of 
them had to swallow their pride and apply for food stamps. 
Being approved for DIC benefits is not winning the lottery and 
$1,067 per month will not permit extravagance. But, along with 
Social Security, it might just be enough to bridge the gap 
between poverty and peace of mind.
    When compared with almost every other line item in the VA 
budget, the cost of correcting this error is trivial. In 2003, 
based on the number of survivors the VA reported were awarded 
DIC upon the death of a former POW spouse after September 30, 
1999, CBO extrapolated that about 480 survivors would be 
eligible for compensation with the amendment of Title 38. CBO 
further estimated that no more than one-third, or about 160 of 
those eligible, would apply for DIC.
    In 2003, the CBO estimated it would cost $15 million in the 
10-year period from FY 2004 through FY 2013 if the bill was 
enacted that year. Because the number of surviving spouses who 
were denied DIC under the 10-year rule has dwindled over the 
past 4 years, the cost of H.R. 156 is now likely to be less 
than $1.5 million a year, decreasing to about zero by 2015.
    In October 2004, then VA Secretary Anthony Principi was 
instrumental in adding two POW presumptives to illnesses which 
the VA considered service-connected: heart disease and stroke. 
These illnesses were presumed to have resulted from the rigors 
of being a POW. Since heart disease ranks as the Number 1 
killer in America, widows who were previously ineligible to 
receive DIC under the 10-year clause now become eligible to 
file if their husbands died of heart disease or stroke. Today, 
4 years later, that CBO estimated number of 160 widows has 
obviously dropped even more, since some of them would already 
be eligible under the new heart disease presumptive and some 
widows, of course, would have passed away in the meantime.
    This bill cries out for passage because these widows, whose 
POW husbands, in the throes of PTSD, were unable to provide for 
their future, cannot survive on Social Security. DIC benefits 
of $1,067 per month will never build a portfolio that will make 
them wealthy, but it can help them pay the light bill or the 
rent and maybe live out their final years without constant 
anxiety.
    POWs suffered enough anxiety when they were captured while 
fighting for their country. They would be happy to know that 
their government is fulfilling Abraham Lincoln's pledge: ``To 
care for him whom shall have borne the battle and for his widow 
and his orphan.''
    Thank you.
    [The prepared statement of Mr. Bussel appears on p. 33.]
    Mr. Hall. Thank you very much, Mr. Bussel, for your 
eloquent and moving testimony.
    I now recognize Mr. King for 5 minutes, and your written 
statement is also in the record.
    Mr. King.

                     STATEMENT OF JIM KING

    Mr. King. Thank you, Mr. Chairman.
    Mr. Chairman, Members of the Subcommittee, I am pleased to 
offer testimony on behalf of the American Veterans (AMVETS) 
regarding pending benefits legislation before this 
Subcommittee.
    AMVETS appreciates the Subcommittee's work to ensure the 
Department of Veterans Affairs can fulfill its obligation to 
provide benefits and services to veterans and/or their 
survivors.
    The Department of Veterans Affairs Servicemembers' Group 
Life Insurance Traumatic Injury Protection program is designed 
to provide financial protection with payments that range from 
$25,000 to $100,000 to servicemembers who have suffered certain 
traumatic injuries while on active duty.
    Though the insurance program started December 1, 2005, 
benefits are payable retroactive to October 7, 2001, for 
servicemembers and veterans who suffered certain traumatic 
injuries while serving in Operation Enduring Freedom and 
Operation Iraqi Freedom.
    Mr. Chairman, the purpose and intent of any insurance 
program is to provide some type of financial security for 
either an individual or surviving family members in the event 
of injury, disability, or death. When or where deaths or 
injuries occur is usually not an impediment to the distribution 
of benefits.
    Service personnel are on duty 24 hours a day, 7 days a 
week. Equally important, service personnel serve where they are 
directed to serve and are not given a choice on how or where 
they will serve.
    AMVETS believes the guiding principles and purpose that 
govern Servicemen's Group Life Insurance or providing full 
coverage regardless of duty location should also be used as a 
basis for administering the TSGLI program. We support H.R. 585.
    H.R. 156 would provide survivor benefits to family members 
of all servicemembers who were held as prisoners of war and 
whose death is viewed as a service-connected death and were 
rated totally disabled for a period of no less than 1 year 
prior to their death.
    Mr. Chairman, this legislation would provide survivor 
benefits to family members of prisoners of war who became rated 
100 percent disabled for 1 year prior to death. This 
legislation removes an arbitrary date allowing families to 
receive benefits they were previously denied, and AMVETS 
supports this legislation.
    H.R. 704 would reduce the age from 57 to 55 when a 
surviving spouse of a deceased veteran can remarry and not lose 
their Dependency and Indemnity Compensation.
    AMVETS believes DIC should not be viewed only as a source 
of income to replace the wage that was being provided by the 
servicemember. DIC is a compensation for a loss that was 
suffered by the survivors. It should continue to be paid 
regardless of the marital status of a surviving spouse.
    Mr. Chairman, AMVETS supports this legislation, and this, 
sir, concludes my testimony, and thank you for your time.
    [The prepared statement of Mr. King appears on p. 34.]
    Mr. Hall. Thank you, Mr. King.
    And the Chair now recognizes for her testimony Sharon Hodge 
from Vietnam Veterans of America.

                   STATEMENT OF SHARON HODGE

    Ms. Hodge. Good afternoon, Mr. Chairman, Ranking Member 
Lamborn, and distinguished Members of the Subcommittee. Thank 
you for giving Vietnam Veterans of America the opportunity to 
testify to you today on the benefits legislation that would 
enhance the lives of men and women in the current theater 
operations and those who have left loved ones behind.
    You have our statement in front of you and our support of 
all three bills. I just am quite moved by Mr. Bussel's 
testimony that I am kind of lost for words, you know. It is so 
uplifting.
    H.R. 585 would amend Title 38 and expand the TSGLI 
benefits. VVA fully supports the bill.
    We know that when Congress passed important legislation 
last year, it did not take into consideration that even 
training for war is a dangerous business in itself and whether 
you are stationed in an active combat zone should not exclude a 
servicemember from the most important benefit.
    Nonbattle wounds can range from injuries in vehicles, 
accidents, to illness. We feel that whenever the injury or 
death of servicemembers occurs, the effect on the 
servicemembers' families is the same. And the impact in terms 
of the fighting force and future demands on the VA is also the 
same. VVA is in favor of removing the restrictions on this 
legislation.
    Regarding H.R. 156, we support providing the DIC indemnity 
of survivors of former prisoners of war who died before 
September 30th. We support removing the restriction on the 
current law that provides DIC benefits only to surviving 
spouses of eligible POWs who died after September 30th.
    We feel that the establishment of this date left many 
widows with unresolved cases penalized due to this cutoff. This 
legislation would treat all surviving spouses of POWs equally 
and grant them DIC benefits regardless of when their POW 
spouses passed away.
    Mr. Chairman, these former POWs and their families have 
clearly sacrificed greatly for our Nation and easing the 
financial burdens of the surviving spouses is a very 
appropriate means of trying to repay this debt. And, again, VVA 
fully supports this legislation.
    H.R. 704 would reduce the age of 57 to 55 for the 
remarrying of the surviving spouses of deceased veterans. VVA 
commends this Committee for previous legislation which allowed 
retention of DIC burial benefits, burial entitlements, and VA 
home loan eligibility for surviving spouses who remarry after 
age 57.
    We strongly recommend the age 57 DIC remarry provisions be 
reduced to age 55 to make it consistent with all Federal 
survivor benefit programs, and we fully support passage of H.R. 
704. We testified strongly for this when Congress lowered the 
age to 57 and VVA still believes that this is the appropriate 
age.
    Mr. Chairman and distinguished Members of the Subcommittee, 
that concludes my formal statement. I will welcome your 
comments and will be pleased to answer any questions.
    I also would like to personally thank the Gold Star Wives 
of America for all their advocacy on the part of the widows and 
their spouses. I know that without all of their hard advocacy, 
a lot of the age restrictions and requirements regarding our 
widows would not be enacted if it were not for their hard-
thought advocacy.
    Again, thank you.
    [The prepared statement of Ms. Hodge appears on p. 34.]
    Mr. Hall. Thank you, Ms. Hodge, for your testimony. I echo 
your words about Mr. Bussel's testimony. I was trying to 
remember to get him to repeat for us the line about physical 
wounds heal, but psychological wounds last forever as I have 
never heard it put exactly that way before.
    It is now my pleasure to recognize Mr. Steve Smithson, the 
Deputy Director for Claims Services, Veterans Affairs and 
Rehabilitation Commission of the American Legion, for 5 
minutes. And your written remarks are entered into the record.

                  STATEMENT OF STEVE SMITHSON

    Mr. Smithson. Good afternoon, Mr. Chairman and Members of 
the Subcommittee. The American Legion appreciates the 
opportunity to present our views on the three bills being 
considered by the Subcommittee today.
    It is the position of the American Legion that the bills 
being considered, H.R. 156, H.R. 585, and H.R. 704, if enacted, 
would help to correct shortcomings in current law that have 
adversely affected certain groups of veterans and their 
survivors.
    Currently, as established by Public Law 109-13, only those 
who suffered a qualifying traumatic injury while serving in 
active duty in Operations Enduring Freedom or Iraqi Freedom 
during the period of October 7, 2001, through November 30, 
2005, are eligible to receive retroactive benefit payments 
under the Traumatic Injury Servicemembers' Group Life Insurance 
program.
    H.R. 585 would eliminate the requirement that only those 
traumatic injuries and losses occurring from service directly 
in OIF or OEF would qualify for such retroactive benefits and 
would open this group to all servicemembers on active-duty 
status during the retroactive period regardless of where the 
traumatic injury occurred.
    The American Legion fully supports the intent of H.R. 585. 
It has always been the position of the American Legion that 
veterans benefits entitlements should apply equally to all 
those with honorable military service. Military service is 
inherently dangerous and the very nature of such service often 
exposes members to hazard of life and limb regardless of the 
circumstances or location of such service.
    The American Legion does not support the creation of 
different classes of veterans for purposes of different levels 
or types of veterans benefits. We, therefore, believe that H.R. 
585 should proceed successfully through the legislative process 
and be enacted into law.
    H.R. 704 would reduce from age 57 to age 55 the age after 
which the remarriage of the surviving spouse of a deceased 
veteran shall not result in termination of Dependency and 
Indemnity Compensation otherwise payable to that surviving 
spouse. The American Legion fully supports removing the bar on 
the payment of DIC benefits to surviving spouses who remarry 
after age 55.
    Public Law 108-83 provided that DIC benefits would not be 
terminated if the surviving spouse remarried at age 57. It is 
the position of the American Legion that the use of age 57 was 
not based on any objective data, but was simply a budget 
savings tool rather than opting for age 55.
    The American Legion has continued to support legislation to 
remove the remarriage penalty for those surviving spouses age 
55 or older who would otherwise have been entitled to DIC. This 
would better align DIC benefits with similar benefits provided 
by other government programs.
    The American Legion also supports a provision that would 
allow surviving spouses who remarried at age 55 or older prior 
to the enactment of the law and whose benefit had been 
terminated the opportunity to apply for reinstatement of 
benefits.
    We understand that it is the intent to provide the 
aforementioned individuals the opportunity to apply for 
reinstatement under the application for benefits section of 
this bill and we ask that the appropriate technical correction 
be made in order for this to happen.
    The American Legion also urges the inclusion of a provision 
that directs VA to conduct specific outreach to inform those 
eligible for reinstatement of DIC benefits under this law of 
the opportunity to apply for reinstatement.
    We also recommend providing at least a 2-year period after 
the enactment of the law in which such individuals may apply 
for reinstatement. Limiting the reinstatement period to only 1 
year is overly restrictive and would prevent otherwise eligible 
individuals from reestablishing entitlement to DIC because of 
missing an overly restrictive and arbitrarily imposed deadline.
    Under the current law, survivors of former POWs who died 
after September 30, 1999, and were continually rated totally 
disabled due to a service-connected disability for a period of 
not less than 1 year immediately preceding death are eligible 
to receive DIC benefits.
    Survivors of such former POWs are not eligible to receive 
DIC benefits if the former POW died on or before September 30, 
1999.
    The American Legion fully supports H.R. 156 as it would, if 
enacted, eliminate the arbitrary delimiting date currently in 
place and establish eligibility to DIC benefits for survivors 
of former POWs who were totally service-connected disabled for 
at least a year prior to death no matter the date of the 
individual's death.
    This concludes my statement, Mr. Chairman. I would be happy 
to answer any questions you or Members of the Subcommittee may 
have.
    [The prepared statement of Mr. Smithson appears on p. 36.]
    Mr. Hall. Thank you very much, Mr. Smithson.
    And as I mentioned before, I have a double booking and I am 
going to have to leave to go to another Committee meeting, but 
I will ask my colleague, Mr. Hare, to assume the chairmanship 
for the remainder of the hearing, and he will recognize Ms. 
Wersel.
    Thank you all very much for your service and for your 
presence and testimony.

             STATEMENT OF VIVIANNE CISNEROS WERSEL

    Ms. Wersel. Hi. Can you hear me?
    Mr. Hare [presiding]. I sure can. Thank you very much.
    Ms. Wersel. Good. Yes. I am an audiologist. I just need to 
make sure everyone can hear.
    Before I start, I would like to recognize my children, 
Richard, age 16, and Katie, age 14, who accompanied me today 
from Emerald Isle, North Carolina. They are here in the 
audience.
    Mr. Hare. Would you have them stand, please. Would you mind 
standing for a second?
    Ms. Wersel. Can you stand?
    Mr. Hare. Can you stand for a second?
    Ms. Wersel. Also, the Gold Star Wives of America that are 
here for my support, thank you.
    Mr. Hare. Thank you for coming.
    Ms. Wersel. Good afternoon. Mr. Chairman, Members of the 
Subcommittee, I would like to thank you for the opportunity to 
submit testimony on behalf of all Gold Star Wives regarding 
H.R. 704.
    This bill amends Title 38 to reduce from age 57 to 55 the 
age after which a surviving spouse may remarry and still retain 
Dependency and Indemnity Compensation.
    My name is Vivianne Wersel. I am the widow of United States 
Marine Corps Lieutenant Colonel Rich Wersel who died February 
4, 2005, a week after returning from his second tour in Iraq.
    My husband's unexpected and untimely death at the age of 43 
was a tragedy for my children, Richard, then age 14, Katie, age 
12, and me. I have spent the past 2 years grieving, helping my 
children with their grief, and working to end survivor 
inequities so that we as military survivors can move on with 
our journeys in life.
    Presently remarriage before the age of 57 results in the 
termination of the DIC benefit for surviving military spouses. 
I have been employed as an audiologist since 1989, yet I have 
not earned a retirement since I have had to change jobs with 
each of the nine duty stations we were assigned during our 15 
years of marriage.
    To maintain my profession, I have been forced to take 
grueling licensure examinations in five States when this is 
typically only done once in one's career. My limited time with 
each job kept me from accruing significant leave, obtaining 
seniority, and earning tenure.
    At times, I could not work because we lived out of the 
country and at times was forced to resign the most perfect job 
so that I could accompany my husband and support him at our 
next duty station. These sacrifices apply to all military 
spouses widowed or not.
    My primary job, however, was with the Marine Corps as a 
good Marine Corps wife, maintaining family unity and family 
readiness. There was never a question about staying behind when 
a new assignment arose simply so I could continue working to 
earn a retirement package.
    The Marine Corps was our life. We were a team. I considered 
myself vested in the Marine Corps when I left my job after job 
to follow my husband after we married. The Marine Corps is 
still my family.
    My husband's pension would have been based on his hard work 
as a Marine Corps officer and also mine as a supporting spouse 
who raised our family when he was so often deployed.
    Lieutenant Colonel Rich Wersel paid for these benefits with 
his life and after serving his country for 20 years, why would 
they be taken away prematurely?
    After I buried my husband, my daughter asked me if I would 
ever marry again. I knew even then I would lose my benefits and 
could not afford it for the sake of the family.
    I choose to stay alone as remarrying would cost me my DIC. 
It is not fair that a law dictates whether someone can remarry 
and still retain her survivor benefit or not. A military widow 
has given so much and should not be precluded from remarrying 
based on financial circumstances.
    It has been 2 years since my husband's death and I am now 
out of my fog of grief. I reflect on how bizarre it is that 
anyone should have to wait until a certain age to find a 
partner again and remarry. In other words, choose financial 
security or an emotional one. We should not have to choose.
    My children will still be in college when I am 55 and with 
no Social Security, I will still need to provide for them. 
Losing my DIC will have an adverse effect on my family's 
optimal well-being. I will still be the mother of his children 
raising them as Wersels if I should remarry before 57.
    Excuse me. My husband would never have thought a second 
marriage would compromise the quality of our lives. His advice 
to me in the event of his death was go straight to the VA 
because there are good benefits available to me. The quality of 
life for my children should not be diminished simply because of 
a decision I might make to remarry.
    My personal situation is simply an example. A surviving 
spouse should not have to be forced to hide relationships or 
perhaps live in sin based on inequity unique only to surviving 
military spouses.
    I believe if military spouses had a union, we would mirror 
other Federal programs that allow survivors to maintain their 
DIC benefits at age 55. Actually, we fall into a category of 
our own which denies us the right to remarry before 57 without 
losing our DIC benefit.
    I am not asking for anything more than you offer in other 
Federal survivor benefits of nonmilitary employment. The CIA 
offers their survivors continued annuity and remarriage at age 
55. Our survivor benefits should align with other Federal 
agencies.
    I work diligently with Gold Star Wives to assure that our 
fallen heroes' survivors are not left behind or forgotten. We 
support 
H.R. 704 which allows widows to remarry at age 55 without 
suffering the loss of the survivor benefit which allows you to 
continue with your DIC.
    Please show these survivors you care and will not forget 
their sacrifice. Those who would benefit from this bill are 
those who are retired or preparing to retire, those living on a 
fixed income, those like me who have foregone continuous 
careers in which to build their own retirement in order to 
support the military spouses and family.
    We urge you to do what is right and get this legislation 
enacted into law. I wish to thank the Subcommittee for having 
this hearing and allowing me to testify in support of H.R. 704. 
And I am happy to answer any questions you may have about this 
important piece of legislation. Thank you.
    [The prepared statement of Ms. Wersel appears on p. 37.]
    Mr. Hare. Thank you very much for some very compelling and 
difficult testimony. And let me assure you that Chairman Hall 
and I think everybody on this Subcommittee shares the concerns 
that you have expressed and we are going to do our very best to 
see that we get this corrected and corrected quickly. It is 
very discriminatory.
    Our next witness is--just want to make sure I have 
everybody's title correct. This is what you get when you are 
the designated hitter--is Meredith Beck who is National Policy 
Director for the Wounded Warrior Project. Did I get that 
correct?
    Ms. Beck. Yes, sir.
    Mr. Hare. Thank you, Ms. Beck

                   STATEMENT OF MEREDITH BECK

    Ms. Beck. Mr. Chairman, thank you for the opportunity to 
testify before you today. My name is Meredith Beck and I am the 
National Policy Director for the Wounded Warrior Project, a 
nonprofit, nonpartisan organization dedicated to assisting the 
men and women of the United States Armed Forces who have been 
severely injured during the War on Terrorism in Iraq, 
Afghanistan, and other hot spots around the world.
    Beginning at the bedside of the severely wounded, WWP 
provides programs and services designed to ease the burdens of 
these heroes and their families, aid in the recovery process, 
and smooth the transition back to civilian life. We strive to 
fill the vital need for a coordinated, united effort to enable 
wounded veterans to aid and assist each other and to readjust 
to civilian life.
    As a result of our direct, daily contact with these wounded 
warriors, we have gained the unique perspective on their needs 
and the obstacles they face as they attempt to reintegrate into 
their respective communities.
    I would like to specifically address H.R. 585, introduced 
by Representative Herseth Sandlin to expand the number of 
individuals qualifying for retroactive benefits under the 
Traumatic Servicemembers' Group Life Insurance.
    One of our finest achievements as an organization was the 
role we played in the creation of this insurance program which 
pays up to $100,000 to severely wounded servicemembers for 
immediate expenses following their injuries.
    WWP is still amazed by the speed with which this 
legislation was introduced and passed, approximately 5 weeks, 
and we are especially pleased the program has paid over $200 
million to injured servicemembers.
    Once the original legislation was enacted creating the 
program, the lion's share of the work done on developing and 
implementing it was done by the Department of Veterans Affairs 
Office of Servicemembers' Group Life Insurance as well as by 
the Department of Defense.
    WWP cannot speak highly enough of all the time and effort 
that has gone into creating this program, and I would like to 
publicly thank all of the involved agencies on behalf of the 
severely injured servicemembers and their families who, in 
their time of greatest need, have had many of their financial 
fears allayed as a result of these insurance payments.
    While WWP is very pleased with the overall implementation 
of the TSGLI program, H.R. 585 would correct one major 
inequity. As currently written, the regulation dictates that 
those injured after December 1, 2005, are covered regardless of 
where their injuries occurred. In order for a retroactive 
injury to be covered, however, it must have occurred in 
Operations Enduring Freedom or Iraqi Freedom.
    It then defines ``in Operations Enduring Freedom or Iraqi 
Freedom'' to mean that the servicemember must have been injured 
while deployed outside the United States on orders in support 
of Operations Enduring or Iraqi Freedoms or served in a 
geographic location that qualified the servicemember for the 
combat zone Tax Exclusion.
    By defining the terms as such, the regulation has 
disqualified a number of traumatically injured servicemembers 
from payment based solely on their location at the time their 
injury was incurred.
    WWP believes that the same criteria that apply to 
prospective injuries should also apply to retroactive injuries 
to October 7, 2001. It is inequitable to deny retroactive 
payments to those who have suffered the same grievous injuries 
based solely on the location where the traumatic event took 
place.
    Without corrective action, brave men and women who were 
traumatically injured after October 7, 2001, but before 
December 1, 2005, will continue to be denied the same 
retroactive payment given to their wounded comrades even though 
the Servicemembers' Group Life Insurance for which TSGLI is a 
rider was made retroactive--brave men and women like Navy Seal 
Toshiro Carrington who was injured in a training accident at 
Camp Pendleton on December 15, 2004, after having returned from 
Iraq. He was holding a charge in his left hand when another 
servicemember accidentally detonated it.
    SO 1 Carrington was left with a traumatically severed left 
hand, a severed right tip of his thumb, and his remaining 
fingers all fractured. Unfortunately, Toshiro's severe injuries 
did not qualify him for a payment under TSGLI due to the date 
on which the accident occurred.
    As mentioned by Representative Herseth Sandlin, another 
servicemember, Seaman Robert Roeder, was injured on January 29, 
2005, when an arresting wire on aircraft carrier USS Kitty Hawk 
severed his left leg below the knee. Seaman Roeder was on his 
way to the Gulf of Arabia when his injury occurred during 
flight training operations. Although the ship was on the way to 
the Gulf and the training exercises being conducted were in 
preparation for action in either Operation Enduring or Iraqi 
Freedom, Robert's injury does not qualify for payment under the 
law as written.
    Robert was hospitalized at Brooke Army Medical Center in 
San Antonio, Texas, for over a year and his recovery and 
rehabilitation has been just as strenuous as it would have been 
had his ship made it to the Gulf of Arabia prior to this 
injury.
    SO 1 Carrington and Seaman Roeder are not the only wounded 
servicemembers being impacted by this inequity in the 
regulation. Therefore, we applaud Representative Herseth 
Sandlin for her recognition of this inequity and strongly urge 
Congress to quickly act on H.R. 585 so that Seaman Roeder, SO 1 
Carrington, and other wounded warriors like them will not be 
deprived of this vitally important insurance program.
    I would also like to point out separate from my testimony 
that these servicemembers are paying for the insurance program. 
A dollar is taken out of their paycheck every month along with 
their SGLI payments. So ultimately the program will pay for 
itself as we reduce the number of wounded.
    Again, WWP is very pleased with the overall implementation 
of the TSGLI program and is very grateful for all of the hard 
work that has gone into making this program a reality. I cannot 
overstate how many people and families have benefited from this 
insurance at a time in their lives when they needed all the 
assistance they could get.
    The Wounded Warrior Project is honored to have played a 
role in its creation and I thank you again for giving us the 
opportunity to testify.
    [The prepared statement of Ms. Beck appears on p. 38.]
    Mr. Hare. Thank you very much, Ms. Beck, for taking the 
time out and coming before the Subcommittee today.
    Our next witness is Todd Bowers, the Director of Government 
Affairs for the Iraq and Afghanistan Veterans of America.
    Welcome, Mr. Bowers, to the Subcommittee and I look forward 
to your testimony.

                    STATEMENT OF TODD BOWERS

    Mr. Bowers. Thank you for having me.
    Mr. Chairman, Members of the Committee, and my fellow 
veterans and their families, it is both an honor and privilege 
to be here today. Let me begin by thanking the Committee for 
your continued support in ensuring that our Nation's newest 
veterans continue to receive the support they have rightfully 
earned.
    My name is Todd Bowers. I am a Sergeant in the Marine Corps 
Reserves stationed here in Washington, D.C. Previously, I have 
served two tours voluntarily in Iraq. I am now Director of 
Government Affairs for the Iraq and Afghanistan Veterans of 
America, also known as IAVA.
    IAVA is the Nation's first and largest organization for 
veterans of the wars in Iraq and Afghanistan. IAVA believes 
that the troops and the veterans who have served and are 
currently serving on the front lines are uniquely qualified to 
speak about the realities of war.
    Veterans are in a position to educate the public and our 
Nation's leaders regarding the health of our military and its 
implications on national security.
    I have been invited here today to discuss three pieces of 
legislation, H.R. 585, H.R. 156, and H.R. 704. All three are 
directed toward benefiting the lives of veterans and, just as 
importantly, their families.
    H.R. 585 expands the number of people who qualify for 
retroactive benefits from the traumatic injury protection 
coverage under the Servicemembers' Group Life Insurance. 
Currently, a traumatic injury must have happened in the OEF/OIF 
theater of operations for it to be covered. This means that 
injuries that occur in the line of duty but not in theater are 
not covered.
    My research has shown me that members of the Armed Services 
have been injured in over 18 countries in addition to Iraq and 
Afghanistan and I assume this number is larger. H.R. 585 is 
clearly a sensible fix.
    But H.R. 585 raises a larger issue and one that I would 
like to take some time to address. The requirement that 
veterans show the precise source of their traumatic injuries is 
often a daunting task. Many traumatic injuries involve closed 
head wounds and are often difficult to connect to one 
particular event among many.
    For example, on October 17, 2004, on the outskirts of 
Fallujah, I was shot in the face while conducting a security 
patrol. The sniper's round penetrated the scope I was using and 
sent fragmentation into the left side of my face. The impact of 
the bullet was strong enough to throw me backward approximately 
3 feet.
    Though this incident may sound severe, I assure you it was 
one of the more minimal wounds seen in theater. For this 
incident, I only received a one-page, handwritten piece of 
paper documenting my injuries. The rest of the proof is in the 
form of metal lodged in my cheekbone. I was lucky. Many are far 
worse off than I am.
    Some of these individuals who may have a more difficult 
time properly documenting and identifying their injuries are 
those who suffer from traumatic brain injuries (TBI), the 
signature wounds of the Iraq War. TBI can accumulate when 
troops are exposed to multiple blasts during their deployments. 
Often there is little or no physical trace of mild to moderate 
TBI and the symptoms, such as difficulties with memory or 
emotional problems, are only recognized months or years later.
    As a result, although veterans' advocates believe that 
between 10 and 20 percent of Iraq veterans, or between 150,000 
to 300,000 people, have some level of TBI, their injuries often 
go undiagnosed and untreated.
    More disturbing is the fact that many veterans do not 
understand the importance of documenting any traumatic incident 
they may have endured.
    I recently spoke to a Marine that was involved in two 
improvised explosive device (IED) blasts while serving in Iraq 
on a second tour. When I asked him if he had any paperwork or 
documentation regarding these incidents, he told me that he 
thought the military would take care of it. Unfortunately, they 
have not.
    I would like to move on now to H.R. 156. The most common 
flags seen when walking the halls of Congress other than Old 
Glory are the prisoner of war, POW, and missing in action, MIA, 
flags. These flags represent a deeply held sentiment of the 
American people. We will never forget our brothers in arms who 
have spent and will spend long months and years away from their 
families in order to serve our Nation.
    It is our duty to ensure that we take care of these 
families as if they were our own. H.R. 156 is a step in the 
right direction and I am pleased to see this legislation 
updating the current benefit system to include more families of 
veterans.
    Taking care of families is a vital part of taking care of 
those who have served. Those who make the ultimate sacrifice 
for our country should rest assured that their spouses will be 
provided for in their absence.
    Benefits given to surviving spouses are paid for in 
immeasurable grief and represent a small part of the debt we as 
a nation owe to the families of veterans. That is why I am 
pleased to see legislation such as H.R. 704 receiving the 
appropriate attention.
    Again, I thank you for the opportunity to speak before you 
today regarding these very important issues. I am prepared to 
answer your questions to the best of my ability at this time. 
Thank you.
    [The prepared statement of Mr. Bowers appears on p. 40.]
    Mr. Hare. Thank you all very much for taking the time to 
come this afternoon. Just maybe a statement and a couple 
questions.
    You know, I am a new Member here. I do not know if you know 
that. But, I think we share a common goal. I have listened 
sometimes to people say how are we going to afford this. And 
from my perspective, I say that should not be the question. The 
question is how can we afford not to do this?
    How can we afford to not do the types of things, whether it 
is for POWs, whether it is for widows, whether it is for people 
who were injured and just because they did not happen to be in 
the place that somebody says they should have been in in order 
to get the benefits, I find it mind boggling.
    And, you are absolutely right. There is a lot of rhetoric 
sometimes about supporting the troops and their families, but I 
think that really the proof is in the pudding. It is up to this 
Committee and I think we have done a great job of doing it. But 
as I said earlier, I think we have a very long way to go.
    Mr. Bussel, I want to just thank you again for your 
testimony and for your service to the country. I was wondering 
if you could give your views on why surviving spouses of POWs 
who died before September 30, 1999, most married to World War 
II POWs, were left out of the original bill.
    Mr. Bussel. I am sorry, sir. I did not hear your question.
    Mr. Hare. I was just wondering if you had any views on why 
you thought the surviving spouses of POWs who died before 
September 30th, who were mostly married to World War II POWs, 
were left out of the original bill. Do you know why that might 
be?
    Mr. Bussel. The number, of course, has dropped. It was 160. 
And over the last 4 years, it has dropped more than that.
    Mr. Hare. Ma'am?
    Ms. Rolen. I am Mary Rolen.
    Mr. Hare. Do you want to come up and use the microphone, 
Mary? You are more than welcome to.
    This is what is nice about not being the full-time 
Chairman. I guess I can do anything I want to do here, right, 
within reason?
    Ms. Rolen. I am Mary Rolen, Legislative Co-Chairman of the 
American Ex-Prisoners of War and the widow of Bill Rolen, past 
Executive Director.
    When this bill was worked on, the Executive Director, Bill 
Rolen, and our Commander at the time had a few hours. Mr. 
Bilirakis and a couple of them called. We had, I think, 4 hours 
to make the decision. Either we take the September 29th day or 
we did not get anything because money was the thing. Rebecca 
can tell you. So we took what we could get.
    Mr. Hare. Thank you very much. I knew somebody had the 
answer to this one.
    Mr. King, do you have any concerns with the overall process 
of applying for the TSGLI benefits that you think we need to 
address or that needs to be addressed from your perspective?
    Mr. King. I am sorry, sir. Could you repeat the question, 
please.
    Mr. Hare. Do you have any concerns with the overall process 
of applying for the TSGLI benefits that you see that need to be 
addressed or that we need to be mindful of here?
    Mr. King. No, sir, I do not.
    Mr. Hare. Thank you.
    Ms. Wersel, you stated that losing your DIC would have a 
tremendous effect on you and your family. I am sure that it 
would. If someone like yourself were to lose the DIC benefits, 
could you tell us what would be your financial alternatives, if 
any?
    Ms. Wersel. What would I do if I lost my DIC?
    Mr. Hare. Right. If you lost your DIC, what would your 
financial alternatives be?
    Ms. Wersel. It is hard to tell because I am predicting. 
Today or when I turn 55 or 57?
    Mr. Hare. Either.
    Ms. Wersel. Because as I age, I have no predictive value, 
what prediction, what is going to become of me, whether or not 
I can continue working or what my costs are going to be.
    Children turn 18. When they are 18, I no longer receive the 
Social Security and that payment drops off completely. And so, 
therefore, my pay does go down. My SBP is already offset by my 
DIC, but my benefits would change at 55 and 57.
    Mr. Hare. So it would be a significant impact on you and 
your family?
    Ms. Wersel. It is. And I think the hardest part about being 
a widow is when you have a partner, you can predict two people. 
I am not the person that has to hold on to all the weight as 
far as the future. When you have a partner, you go, okay, if 
something happens, at least I am not on a fixed income.
    I do not have a position. Even though I am well educated, I 
left every position to have a retirement. I am now looking at 
my husband's retirement to be my retirement and that was not in 
the plan. But because we moved, there was no opportunities for 
that. So now I am, yes, on a fixed income.
    Mr. Hare. Okay. Thank you very much.
    Mr. Bilirakis?
    Mr. Bilirakis. Mr. Chairman, thank you very much.
    I do have a couple questions regarding the DIC, but I would 
like to, if it is okay, I think we need to keep repeating this 
until we get this bill passed. I want to go ahead and read my 
opening statement regarding H.R. 705, if that is okay.
    Mr. Hare. No objection.
    Mr. Bilirakis. Okay. Thank you.
    First of all, I would like to thank Chairman Hall and 
Ranking Member Lamborn for including this bill on our agenda, 
and now we have to get it done.
    H.R. 704 provides that the remarriage of the surviving 
spouse of a veteran after age 55 shall not result in 
termination of Dependency and Indemnity Compensation, DIC. As 
my colleagues know, Dependency and Indemnity Compensation is 
the benefit accorded to the surviving dependents of those 
members of the Armed Forces who died while on active duty or of 
a service-connected cause.
    Until recently, DIC was the only Federal annuity program 
that did not allow a widow who is receiving compensation to 
remarry at an older age and retain her annuity.
    My father, Congressman Mike Bilirakis, began work on this 
issue in 1987 when he introduced DIC remarriage legislation in 
the 100th Congress. So we have been working on it for this 
long. He worked on this issue for some time before achieving 
success in 2003 when a slightly modified version of the bill 
was enacted into law.
    Due to funding constraints, Congress enacted legislation 
that allowed spouses who remarried after age 57 to retain their 
DIC benefits. Surviving spouses who remarried after attaining 
age 57 prior to enactment of the compromise legislation were 
given 1 year to apply for reinstatement of their DIC.
    My father continued his efforts to restore DIC benefits to 
those widows who remarry after age 55 until he retired from 
Congress last year. I am pleased to be continuing his efforts 
on this important issue in the 110th Congress.
    I think it is a wonderful thing if an older person finds 
companionship, falls in love, and decides to marry. I do not 
think we should be discouraging such marriages by making them 
financially burdensome.
    And, Vivianne, you said it so well. I could not say it 
better.
    For those remarrying after the age of 55, it is often the 
case that both partners are living on fixed incomes. The 
prospect of one partner losing financial benefits as a result 
of the marriage is a real disincentive. And I see that every 
day. Before this career, I used to practice estate planning, so 
I went through this with my clients.
    And this bill would resolve that. It makes a simple change 
that could mean a great deal to those who find themselves in 
this predicament. The bill would allow a widow to remarry at 
age 55 and retain her DIC benefits. It prohibits retroactive 
benefits.
    But like the previously enacted DIC remarriage law, the 
intent of my legislation is to give widows who remarry after 
reaching the age of 55 before the bill was enacted an 
opportunity, give them an opportunity to apply for the 
reinstatement of their DIC benefits.
    In closing, Mr. Chairman, I want to thank you once again 
for including my bill in today's hearing and I hope that you 
and other colleagues on this Subcommittee will join me in 
supporting this change. And I look forward to the markup.
    Thank you very much. And I do have a couple questions if 
that is okay.
    Mr. Hare. Absolutely.
    Mr. Bilirakis. Thank you.
    First of all, Vivianne, can you estimate how many of your 
members or how many spouses, surviving spouses are in this 
predicament? How many would take advantage of this opportunity 
if H.R. 704 were passed into law?
    Ms. Wersel. That is going to be an independent variable 
because every 2 years, it is going to change. So there is about 
60,000 that are eligible right now for SBP DIC; is that 
correct, Mary? It is about 60,000.
    But, remember, it will not be 60,000 all at once getting 
married. It will not be a mass marriage.
    Mr. Bilirakis. True. True.
    Ms. Wersel. So it is very hard to give a predictive value 
as of this year.
    I do want to add I have a letter from another Gold Star 
widow here that I would like to just enter and leave for you 
all.
    Mr. Hare. Without objection.
    [The letter has been included in Submissions for the 
Record, and appears on p. 44.]
    Mr. Bilirakis. Thank you. And one last question, Vivianne.
    As far as when the compromise bill, allowing remarriage 
after the age of 57, was passed a couple years ago, I know that 
it says that the spouses, surviving spouses are given 1 year to 
apply for their DIC to be reinstated. How much outreach was 
there on behalf of the VA?
    Ms. Wersel. You know, I am a fairly new widow, but I have a 
colleague that I work with whose husband was killed in Beirut 
and she was telling me that one day she received a phone call 
from a friend. And if it was not for her friend, she never 
would have known she could have, you know, reapplied to get her 
benefits back.
    But the problem is that was the past. And I think the VA 
has done a really good job right now. They are doing great with 
communication. They have improved a lot. So I sort of cannot go 
and look in the rearview mirror, but I think right now the VA 
is doing an excellent job reaching spouses or making an effort 
to get the word out. And communication has changed immensely in 
10 years, so that would be a hard question to answer honestly.
    Mr. Bilirakis. Okay. Well, we can look forward and when 
this legislation passes, we want to make sure we get the good 
word out because we can pass all the good bills on the books 
and then if people do not know about it, it does not do any 
good.
    Ms. Wersel. No.
    Mr. Bilirakis. Well, thank you very, very much for your 
testimony. I appreciate it.
    Thank you, Mr. Chairman.
    Mr. Hare. Thank you, Mr. Bilirakis, and thank you for your 
wonderful piece of legislation. I look forward to cosponsoring 
it. I think I am already doing that, but hopefully we can get 
this bill moving quickly.
    Mr. Bowers, first of all, I want to thank you for your 
service to this country. I have three questions I would like to 
ask you because I think they are very important not just for 
the record but to help me understand this a little bit.
    In your testimony, you state that the requirement that the 
veteran show the precise source of their traumatic injuries is 
often a daunting task. Given the rise in these TBIs in OIF and 
OEF, what do you believe is the best course of action to deal 
with the requirement that soldiers show the precise source of 
injury?
    Mr. Bowers. I would recommend more precise paperwork in 
regards to that. When people are admitted to a treatment 
facility, where they are actually injured is usually found in 
what is called the sit-rep, their situational report, which is 
essentially the story as to what has occurred for them to have 
this injury. That is separate from their medical records. Their 
medical record begins from their treatment center.
    So, for example, I was wounded in a certain area when I 
made it to Bala Surgical at Camp Fallujah. That is where my 
paperwork was documented. My instance was not that great, but 
there are people who have to be medivac'd and/or helo'd and 
sometimes through the paperwork, it is lost.
    Also, the SDAP, which is the military statistical 
information site, shows where many injuries occur and in some 
instances, it can be on the Red Sea. They sort of fall back on 
what their orders are calling them for.
    Mr. Hare. So, generally speaking, do you think there is a 
better way that we can inform injured soldiers as to what needs 
to be done to get the benefits to which they are entitled?
    Mr. Bowers. I do believe. But I think, just as importantly, 
it needs to be conveyed to the soldiers and/or their leaders 
that no matter how minor the incident may seem, if they were 
the third vehicle back in an IED, it needs to be documented and 
it needs to be placed somewhere in their medical field jacket.
    Mr. Hare. Given that, you also said that many veterans do 
not understand the importance of documenting those injuries or 
any traumatic incident that they may have endured. Does the 
military or the VA do outreach to educate servicemembers on the 
importance of documenting injuries?
    Mr. Bowers. I believe it is in its early phases right now, 
but the difficult part is for the 19-year-old Lance Corporal on 
the front lines. He cannot envision himself having an injury 10 
years down the road. So it is very difficult to convey. It is 
something that needs to be done from the top all the way down 
to the bottom that they can sort of convey these messages.
    Ms. Beck. Sir, can I actually respond to a partial portion 
of that one?
    Mr. Hare. Thank you, Ms. Beck. Sure.
    Ms. Beck. One thing that we have suggested is in 
recognizing the limitations of paperwork sometimes in the 19-
year-old who never thinks he is going to be injured, we have 
actually requested that there be the adoption of a pre- and 
post-deployment cognitive screening that regardless of the 
paperwork that is available, there would be a baseline test 
that is done. This falls a little bit outside of TSGLI because 
nine times out of ten, it is going to be a very traumatic 
injury that actually affects their activities of daily living 
and their abilities to perform those.
    But for the mild to moderate TBIs, having that kind of 
baseline screen can prove very beneficial when they come back 
and suddenly do not understand why they cannot remember 
anything if they have been involved in a series of concussive 
events. It can explain behavioral differences and problems and 
it can also then facilitate their efforts to receive treatment 
for it.
    Mr. Hare. Thank you.
    Let me thank you all very much for taking the time out of I 
know busy schedules and also thank you for the people that you 
represent. You do a wonderful job. So thank you for coming 
before the Subcommittee today. We will push these as fast as we 
can. Thank you very much for coming.
    Our next panel is Mr. Jack McCoy. He is the Associate 
Deputy Under Secretary for Policy and Program Management.
    Welcome, Mr. McCoy. Thank you for coming this afternoon.
    Mr. McCoy. Thank you.
    Mr. Hare. At this time, we are ready for your testimony. 
And did you want to introduce the persons with you in case I do 
not have it here in my notes, which I do not think I do?

 STATEMENT OF JACK MCCOY, ASSOCIATE DEPUTY UNDER SECRETARY FOR 
       POLICY AND PROGRAM MANAGEMENT, VETERANS BENEFITS 
     ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
ACCOMPANIED BY DAVID BARRANS, DEPUTY ASSISTANT GENERAL COUNSEL, 
 PROFESSIONAL STAFF GROUP II, OFFICE OF GENERAL COUNSEL, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

    Mr. McCoy. Yes, sir. Mr. Chairman and Members of the 
Subcommittee, thank you for the opportunity to testify today on 
the three bills under consideration.
    I am accompanied today by Mr. David Barrans from the Office 
of General Counsel.
    H.R. 585 would remove the geographic requirements for 
eligibility to retroactive Traumatic Servicemembers' Group Life 
Insurance, TSGLI, benefits. It would extend eligibility for 
retroactive benefits for traumatic injury protection coverage 
under TSGLI to all members of the uniformed services who 
sustained a qualifying loss from a traumatic injury between 
October 7, 2001, and November 30, 2005, regardless of 
geographic location.
    Section 1032 of Public Law 109-13 authorized the payment of 
TSGLI to any servicemember insured under Servicemembers' Group 
Life Insurance who sustains a serious traumatic injury that 
results in certain losses.
    Under section 1032(c) of Public Law 109-13, TSGLI also was 
authorized for a member of the uniformed services who incurred 
a qualifying loss between October 7, 2001, and December 1, 
2005, provided the loss was a direct result of injuries 
incurred in Operation Enduring Freedom or Operation Iraqi 
Freedom.
    Section 501(b)(1) of the ``Veterans' Housing Opportunity 
and Benefits Improvement Act of 2006,'' Public Law 109-233, 
subsequently narrowed eligibility for retroactive TSGLI to 
apply only to servicemembers who suffered scheduled losses as a 
direct result of traumatic injury incurred in the theater of 
operations for OEF or OIF beginning on October 7, 2001, and 
ending November 30, 2005.
    Section 1 of H.R. 585 would amend section 501(b)(1) by 
extending eligibility for retroactive TSGLI to servicemembers 
whose injuries occurred between October 7, 2001, and December 
1, 2005, outside the OEF or OIF theater of operation.
    VA estimates the enactment of section 1 would result in 695 
additional TSGLI claims and would cost $47.7 million. VA defers 
to the Department of Defense (DoD) on the merits of the 
proposed bill because DoD will bear the costs associated with 
its enactment.
    H.R. 156. Chapter 13 of Title 38, United States Code, 
currently provides for the payment of Dependency and Indemnity 
Compensation to survivors of former prisoners of war who died 
after September 30, 1999, and who were rated as totally 
disabled due to service-connected disability for at least 1 
year immediately preceding death.
    H.R. 156 would amend Chapter 13 to authorize payment of DIC 
to survivors of former POWs who died on or before September 30, 
1999, under the same eligibility conditions applicable to 
payment of DIC benefits to the survivors of POWs who died after 
September 30, 1999.
    We regret that due to the short notice we received 
concerning this hearing, we do not yet have cleared views and 
estimates concerning H.R. 156, but we will be providing them 
for the record.
    [Administration views on H.R. 156 were not provided from 
the U.S. Department of Veterans Affairs.]
    H.R. 704, section 1(a) of H.R. 704, would amend eligibility 
requirements for certain survivor benefits for remarried 
surviving spouses. Under current law, a surviving spouse who 
remarries is not eligible for DIC, medical care, educational 
assistance, or housing loans based on a prior marriage to a 
deceased veteran unless the surviving spouse remarries after 
age 57, after age 55 in the case of medical care.
    Section 1(a) of H.R. 704 would reduce from 57 to 55 the age 
after which a surviving spouse may remarry without losing 
eligibility for DIC, educational assistance, and housing loans.
    Section 1(b) would specify that this amendment shall take 
effect on the later of the first day of the first month that 
begins after the date of enactment of the bill or the first day 
of the fiscal year that begins in the calendar year of 
enactment of the amendment.
    Section 1(c) would prohibit the payment of any benefits 
based on the amendment for any period before the effective date 
of the amendment.
    Section 1(d) would permit an individual who remarried 
before the bill's enactment and after age 57 to apply for 
reinstatement of benefits before the end of the 1-year period 
beginning on the date of enactment.
    We regret that due to the short notice we received 
concerning this hearing, we do not yet have cleared views and 
estimates concerning H.R. 704, but we will be providing them 
for the record.
    [Administration views from the U.S. Department of Veterans 
Affairs on H.R. 704 were received on October 26, 2007, and 
appear on p. 50.]
    This concludes my statement, Mr. Chairman.
    [The prepared statement of Mr. McCoy appears on p. 41.]
    Mr. Hare. Thank you, Mr. McCoy, for being here this 
afternoon. Actually, I have about six or seven questions and I 
do not want to keep you too long.
    But to clarify for everyone, can you walk the Subcommittee 
through the process for a soldier suffering a traumatic injury 
seeking to utilize the Traumatic Servicemembers' Group Life 
Insurance.
    Mr. McCoy. The initial process takes place on the DoD side. 
DoD actually certifies to the insurance center that someone is 
eligible for Traumatic Servicemembers' Group Life Insurance. 
And then the insurance center in Philadelphia, through 
Prudential Insurance, administers the benefit.
    Mr. Hare. This is sort of a four-part question, so bear 
with me here. How does the average claim present itself to the 
VA would be the first part and then what type of medical 
evidence or documentation does the VA require to support the 
claim and grant the life insurance for traumatic injury?
    Mr. McCoy. We require the certification from the Department 
of Defense that the person has incurred one of the number of 
traumatic injuries and we make the payment based on the 
certification from DoD.
    Mr. Hare. Why must a servicemember survive 7 days from the 
day of the traumatic event to qualify for the TSGLI?
    Mr. McCoy. That I cannot answer.
    Mr. Hare. If you could try.
    Mr. McCoy. I can, yes, sir.
    Mr. Hare. I would appreciate that.
    [The following was subsequently received from Mr. McCoy:]

        Issue

          The enacting legislation for the TSGLI program provided 
        authority for the Secretary to set out, by regulation, a 
        delimitating period that a member must survive after sustaining 
        a traumatic injury in order to qualify for a benefit under the 
        TSGLI program. Under 38 CFR, 9.20, published in December 2005, 
        that period was established as seven days. Information on the 
        origin and logic of this period has been requested.

        Background

          In commercial insurance design, if a payment is made for 
        accidental dismemberment, the amount of the award is deducted 
        from any future death award. While the intent of TSGLI was not 
        to reduce the amount of the typical $400,000 death benefit for 
        SGLI neither was it intended that the TSGLI program be a 
        supplemental benefit for a traumatic death.
          TSGLI was designed to provide severely injured servicemembers 
        who suffer a loss as a direct result of a serious traumatic 
        injury with monetary assistance to help the member and the 
        member's family through an often long and arduous treatment and 
        rehabilitation period. TSGLI is modeled after commercial 
        Accidental Death and Dismemberment (AD&D) insurance coverage, 
        specifically, the ``dismemberment'' portion of the coverage, 
        but deviates in some respects from the commercial AD&D model, 
        to account for the unique needs of military personnel.

        Discussion

          When formulating the program design for the TSGLI program, we 
        selected a seven day period based on a review of data gathered 
        by DoD concerning traumatic injuries incurred in Operations 
        Enduring Freedom and Iraqi Freedom. That data showed that it 
        usually takes a minimum of seven to ten days following a 
        traumatic injury to stabilize the injured member and transport 
        the member back to the United States for further treatment and 
        to begin the rehabilitation process. During this initial 
        period, the service department pays most if not all major 
        expenses that are incurred by an injured member and/or the 
        member's family relating to travel by the family to be at the 
        member's side. As a result, TSGLI benefits are not needed 
        during the initial period following a traumatic injury.
          Once the member's condition is stabilized and doctors and the 
        member decide on a course of treatment, TSGLI benefits are 
        needed and are available to help pay for expenses incurred 
        after the initial period. Furthermore, if the insured member 
        dies within seven days after a traumatic injury, although no 
        TSGLI benefit is payable, the basic SGLI death benefits, up to 
        $400,000 plus the military death gratuity of $100,000 are 
        available and are paid to the beneficiary designated by the 
        member or other eligible beneficiary.

    Mr. Hare. And can you tell us specifically what TSGLI does 
not cover?
    Mr. McCoy. It would be easier to tell you, I mean, there 
are 40--actually, 44 different categories of injuries that are 
covered. I guess to answer your question, it would be something 
that is not a severe injury. I do not know a better answer than 
that.
    Mr. Hare. Does that include PTSD?
    Mr. McCoy. It does in the sense of if someone cannot 
function with the activities of daily living, but PTSD in 
itself is not a listed disability for TSGLI.
    Mr. Hare. Do you know why that is?
    Mr. McCoy. Pardon me?
    Mr. Hare. Do you know why that is, why it is not?
    Mr. McCoy. No, sir. But I can assure you that it is 
something we are looking at very closely. From an insurance 
standpoint of the TSGLI program, we are actually getting very 
close to the end of our first year review of the program and 
this is something that we are looking at.
    Mr. Hare. Okay. The TSGLI program has paid about 3,266 
cases totaling about $206 million with an average claim payment 
of about $63,000 plus. Is this an expense to the Department of 
Defense and, if not, how does the VA pay for the claims? Is 
that through mandatory or discretionary spending?
    Mr. McCoy. Sir, I do not have the cleared views of the 
Department on that.
    Mr. Hare. Could you get that for the Committee?
    Mr. McCoy. Yes, sir.
    [The answer is included in the response to Question 3 in 
the post-hearing questions for the record, which appears on p. 
48.]
    Mr. Hare. I appreciate that.
    As the VA works to improve this processing of the TSGLI and 
have undertaken a year one review, what have you learned that 
is going to help improve this processing time to speed payments 
to servicemembers and their families?
    Mr. McCoy. I really cannot answer that until we see the 
results of that first-year review.
    Mr. Hare. And when is that due to occur?
    Mr. McCoy. I will have to get that to you also. It is very 
soon.
    [The following was subsequently received from Mr. McCoy:]

          We intend to brief the Committee staffs in August and a 
        complete written report will be available in September.

    Mr. Hare. Okay.
    Mr. McCoy. We visited with, or insurance has visited with 
all the service departments to look at exactly what we are 
doing and how we are doing it.
    Mr. Hare. Can the VA provide the population figures with 
regard to H.R. 156?
    Mr. McCoy. Yes, sir.
    [The answer is included in the response to Question 6 in 
the post-hearing questions for the record, which appear on p. 
49.]
    Mr. Hare. Okay. I appreciate that.
    Mr. McCoy. That will be in part of the estimate.
    Mr. Hare. Okay. And my last question with regard to H.R. 
704, could the VA also provide the Subcommittee the population 
figures for that legislation?
    Mr. McCoy. Absolutely.
    [The answer is included in the response to Question 7 in 
the post-hearing questions for the record, which appears on p. 
49.]
    Mr. Hare. Thank you, Mr. McCoy.
    Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. McCoy.
    Thank you, Mr. Chairman.
    Thanks for coming. Regarding H.R. 704, you stated that the 
Department has not had time to prepare its response, yet the VA 
has encountered this issue before and had a definite response.
    In fact, the Subcommittee conducted a hearing on DIC 
remarriage legislation in the 107th Congress, H.R. 1108, and 
this bill also allowed for the retention of DIC benefits if a 
surviving spouse remarried after age 55.
    At the hearing on April 11, 2002, Under Secretary Cooper 
testified, and I quote, ``the VA supports enactment of this 
legislation.'' And Admiral Cooper also said in that testimony 
that the use of the age 55 would align DIC benefits with 
benefits provided to surviving spouses of military retirees 
under DoD's Survivor Benefit Plan and to surviving spouses 
under the Social Security program.
    A couple questions. What has changed if you can----
    Mr. McCoy. I cannot answer that, sir.
    Mr. Bilirakis. Okay. Can you take this testimony under 
consideration or the VA, can you look into this, take this 
testimony, the prior testimony under consideration when they 
take a----
    Mr. McCoy. Yes, sir.
    Mr. Bilirakis [continuing]. Position on this bill?
    Mr. McCoy. Absolutely.
    Mr. Bilirakis. Okay. All right. Thank you very much. I 
appreciate it.
    Mr. Hare. Just one other question, Mr. McCoy. Do you know 
when the VA may develop a position on these bills?
    Mr. McCoy. Very shortly. I mean, it is fair to say we are 
doing it as we speak. So it will be very soon.
    [Administration views from the U.S. Department of Veterans 
Affairs on H.R. 704 were received on October 26, 2007, and 
appear on p. 50. Administration views on H.R. 156 were not 
provided from the U.S. Department of Veterans Affairs.]
    Mr. Hare. Well, it is my hope that the VA will look 
favorably upon these three bills because they are tremendous 
pieces of legislation that will help veterans and spouses. And, 
it is my hope that the VA will get back to the Committee with a 
position so we can work together to get these through.
    Mr. Bilirakis, anything else?
    Mr. Bilirakis. Thank you, Mr. Chairman. A great hearing and 
I look forward to the markup on all three bills. Thanks very 
much.
    Mr. Hare. Thank you, Mr. McCoy.
    Are there any other Members? We are it, Gus.
    I just want to thank you all for your statements this 
afternoon. This concludes our hearing.
    And, as I said to everybody on the panel, please be assured 
that this is a bipartisan effort and we are going to work very 
hard to get these bills through.
    So, with that, this Committee meeting stands adjourned.
    [Whereupon, at 3:30 p.m., the Subcommittee was adjourned.]






















                            A P P E N D I X

                              ----------                              

       Opening Statement of the Honorable John J. Hall, Chairman,
       Subcommittee on Disability Assistance and Memorial Affairs
    I would first like to thank all of the witnesses for their 
testimonies on these three noncontroversial but critical bills.
    I want to thank Mr. Holden for appearing before our Subcommittee to 
present testimony on his bill, H.R. 156, which would change the date of 
eligibility for Dependency and Indemnity Compensation (DIC) payments to 
survivors of former POWs to include those POWs that died before 
September 30, 1999. Current DIC payments for POWs only cover those 
qualifying POWs that die after September 30, 1999. This bill would 
correct this inexplicable inequity. I am proud to have one of my 
constituents from New York, District 19, here today, Mr. Norman Bussel, 
past President of the American Ex-Prisoners of War Service Foundation, 
to testify in support of this legislation.
    Welcome, Mr. Bussel. Thank you again for being here to offer your 
insight as a former POW and thank you for your service to our country.
    As with all mandatory spending, we will have to find the offsets to 
pay for this change in order to comply with PAYGO rules adopted at the 
beginning of this Congress. However, as the number of qualifying 
spouses has dwindled, I pray that we will be able to work in a 
bipartisan manner to find the funding to help this small population of 
mostly widows.
    We will also receive testimony on a bill sponsored by Mr. Bilirakis 
that would affect the DIC, H.R. 704. His bill would change the age of 
remarriage for surviving spouses from age 57 to 55. Currently, if a 
surviving spouse remarries before age 57, the DIC payments cease 
automatically. This is a harsh result for surviving spouses who have 
sacrificed and lost so much as a mate to these veterans. As Mr. 
Bilirakis will surely point out, changing the age from 57 to 55 will 
also bring this provision in line with several other Federal survivors 
programs, particularly the Military Survivor Benefit Plan.
    I know this bill enjoys wide support and I certainly support its 
concept of allowing love to flourish for these survivors in their later 
years without penalty even earlier.
    Lastly, we will consider H.R. 585, sponsored by Congresswoman 
Herseth Sandlin, Chair of the Economic Opportunity Subcommittee, which 
would change the retroactive provisions of the Traumatic 
Servicemembers' Group Life Insurance (TSGLI) program to allow those 
servicemembers injured outside of Iraq and Afghanistan between October 
7, 2001, and November 30, 2005, to qualify for coverage. Currently, 
only those who physically served in these combat areas qualify. Since 
December 1, 2005, all servicemembers who participate in the SGLI 
program are automatically covered with TSGLI no matter where they 
physically served and, thus, no fix is needed for these servicemembers 
at this time.
    The TSGLI program is intended to provide short-term help to the 
families of severely injured servicemembers to help with expenses 
incurred in helping them and their families recover from their 
injuries. In my own State of New York, 118 servicemembers have 
benefited from this program and the average payment is $61,229. In 
Colorado, 112 servicemembers received payment which averaged $58,482.
    To date, the total number of TSGLI cases paid is 3,266 totaling 
$206,235,000. The average payout is $63,158. Surely many qualifying 
servicemembers and their families would benefit from this legislative 
fix and I wholeheartedly support it.
    During times of war, all servicemembers offer the same gift to our 
country, their selfless service in our Armed Forces to defend our 
Nation. Each of their lives is valuable and potentially at risk no 
matter what the duty assignment. This bill, by making this small but 
substantive change, would recognize that truth.
    Lastly, I look forward to hearing the VA's updated views on these 
bills.

                                 <F-dash>
  Opening Statement of the Honorable Doug Lamborn, Ranking Republican 
   Member, Subcommittee on Disability Assistance and Memorial Affairs
    Thank you, Mr. Chairman, for recognizing me. I look forward to 
hearing the views of our witnesses and our colleagues on the 
legislation before us.
    Our first bill, H.R. 156, provides Dependency and Indemnity 
Compensation (DIC) payments to the survivors of veterans, rated totally 
disabled at the time of death, who were former prisoners of war. This 
bill lifts the payment restriction on families of those veterans who 
died after September 30, 1999.
    In reading some of the testimony it seems that there are less than 
850 families that would qualify for this legislation, thus making it 
the least costly of the three.
    Our second bill, H.R. 585, would extend retroactive payments under 
the Traumatic Servicemembers' Group Life Insurance (TSGLI) program to 
those servicemembers who were wounded outside of the theater of 
operations in Iraq and Afghanistan. This legislation has merit because 
any time a servicemember is seriously injured and would otherwise 
qualify for TSGLI, it should not matter where the traumatic injury 
occurred.
    Our last bill, H.R. 704, would dispense with the restriction of DIC 
payments to survivors who remarry before age 57 and allows them to keep 
their DIC payment if they remarry after age 55.
    This brings the DIC program in line with other survivor programs 
such as Social Security and DoD's Survivors Benefit Plan (SBP) when it 
comes to the continuance of payments after remarriage.
    Mr. Chairman, while in principle I support all of the bills before 
us, I do understand that all of them have mandatory funding issues. My 
question to you is whether any offsets for these bills have been 
identified?
    If there are no offsets then perhaps this hearing is premature. It 
would be my hope that a legislative hearing would be part of a 
deliberate process that would lead to a markup of legislation for the 
Full Committee's consideration. I know everyone's time is at a premium 
and I share with you a desire to make the most of it.
    That being said, I hope that we can find offsets to move these 
bills forward and I look forward to working with you and your staff to 
make sure we do this.
    My thanks to my colleagues and the witnesses for their testimony 
and I yield back.

                                 <F-dash>
          Opening Statement of the Honorable Gus M. Bilirakis,
         a Representative in Congress from the State of Florida
    I want to thank Chairman Hall and Ranking Member Lamborn for 
including my legislation, H.R. 704, on today's hearing agenda. H.R. 704 
provides that the remarriage of the surviving spouse of a veteran after 
age 55 shall not result in termination of Dependency and Indemnity 
Compensation (DIC).
    As my colleagues know, Dependency and Indemnity Compensation is the 
benefit accorded to the surviving dependents of those members of the 
Armed Forces who died while on active duty or of a service-connected 
cause. Until recently, DIC was the only Federal annuity program that 
did not allow a widow who is receiving compensation to remarry at an 
older age and retain her annuity.
    My father, former Representative Mike Bilirakis, began work on this 
issue in 1987 when he introduced DIC remarriage legislation in the 
100th Congress. He worked on this issue for some time before achieving 
success in 2003 when a slightly modified version of his bill was 
enacted into law.
    Due to funding constraints, Congress enacted legislation that 
allowed spouses who remarried after age 57 to retain their DIC 
benefits. Surviving spouses who remarried after attaining age 57 prior 
to enactment of the compromise agreement were given 1 year to apply for 
reinstatement of their DIC.
    My father continued his efforts to restore DIC benefits to those 
widows who remarry after age 55 until he retired from Congress in 2006. 
I am pleased to be continuing his efforts on this important issue in 
the 110th Congress.
    I think it is a wonderful thing if an older person finds 
companionship, falls in love and decides to marry. I don't think we 
should be discouraging such marriages by making them financially 
burdensome. For those remarrying after the age of 55, it is often the 
case that both partners are living on fixed incomes. The prospect of 
one partner losing financial benefits as a result of the marriage is a 
real disincentive.
    My bill, H.R. 704, makes a simple change that could mean a great 
deal to those who find themselves in this predicament. The bill would 
allow a widow to remarry at age 55 and retain her Dependency and 
Indemnity Compensation (DIC) benefits. It prohibits retroactive 
benefits, but like the previously enacted DIC remarriage law, the 
intent of my legislation is to give widows who remarried after reaching 
age 55 before the bill was enacted an opportunity to apply for the 
reinstatement of their DIC benefits.
    In closing, Mr. Chairman, I want to thank you once again for 
including my bill in today's hearing. I hope that you and our other 
colleagues on the Subcommittee will join me in supporting this change. 
I look forward to hearing the testimony from today's witnesses.

                                 <F-dash>
                 Statement of the Honorable Tim Holden,
      a Representative in Congress from the State of Pennsylvania
    Chairman Hall, Ranking Member Lamborn, and Members of the 
Subcommittee, 
I want to thank you for the opportunity to testify before you today in 
support of 
H.R. 156, which seeks to correct an inequity in the awarding of 
Dependency and Indemnity Compensation (DIC) benefits to surviving 
spouses of qualifying former prisoners of war.
    Current law provides DIC benefits for surviving spouses of former 
prisoners of war who were rated as totally disabled for service-
connected disability at the time of death--so long as that former POW 
dies after September 30, 1999. However, surviving spouses of qualifying 
former POWs who died before or on September 30, 1999, do not qualify 
for any DIC benefits unless the former POW died of a service-connected 
disability or was 100% service-connected for at least 10 years prior to 
death.
    Prior to 1999, all surviving spouses of qualifying former POWs were 
eligible for DIC benefits so long as the former POW was rated 100 
percent disabled for a minimum of 10 years prior to his or her death. 
Since many POW's had difficulty in establishing their eligibility for 
service-connected compensation benefits until after Congress 
established certain presumptions, many POW's died while being 100% 
service-connected for less than 10 years. That problem was addressed by 
the Veteran's Millennium Healthcare Act of 1999, which allowed 
surviving spouses to qualify if their POW spouse was service-connected 
for 1 year before death and died after September 30, 1999.
    Not too long after the Veteran's Millennium Healthcare Act was 
enacted, Mr. Leigh Tallas, a veteran and an advocate from one of the 
county VA offices in my congressional district, contacted me to express 
his concern with the consequence of limiting the awarding of benefits 
only in the case where the qualifying former POW died after September 
30, 1999. He told me about an active case he was working on where the 
surviving spouse was being penalized due to this provision.
    Following my meeting with Mr. Tallas, I first introduced this 
legislation you are considering today in the 107th Congress and 
reintroduced it in each subsequent Congress.
    Mr. Chairman, the change my bill seeks to do is very simple and 
straightforward. This bill will amend Title 38 of the U.S. Code to 
treat all surviving spouses of qualifying former POWs equally, granting 
them DIC benefits regardless of when their former POW spouse passed 
away.
    While I was not able to secure a score by the Congressional Budget 
Office (CBO) on H.R. 156 during the first part of the 110th Congress, 
CBO estimated in 2003 that about 480 survivors would be newly eligible 
for DIC under an identical bill. Because many of these deaths occurred 
over the last 50 years or more, during which survivors may have lost 
touch with veterans' organizations that could inform them about the new 
benefit, and considering that some survivors may have remarried making 
them ineligible for DIC, CBO assumed that no more than one-third, or 
about 160, of these eligible survivors would apply for DIC under the 
bill. CBO also assumed that these new DIC cases would phase in over a 
5-year period as eligible survivors learn about their eligibility and 
complete the process of applying for benefits from VA.
    Our Nation's POWs sacrificed their liberty for the freedom we 
enjoy. Their surviving spouses deserve to receive Dependency and 
Indemnity Compensation. The unequal eligibility criteria should be 
eliminated. This bill does that.
    Mr. Chairman, I thank you and the Subcommittee for considering this 
bill and urge you to report it favorably.

                                 <F-dash>
                      Statement of Norman Bussel,
         National Service Officer, American Ex-Prisoners of War
    Chairman Hall and Members of the Subcommittee, I am a National 
Service Officer accredited by the Department of Veterans Affairs and I 
represent the American Ex-Prisoners of War organization. I am a 
volunteer and I assist veterans who wish to file claims for service-
connected disabilities. As a member of a B-17 bomber crew, I bailed out 
of my burning plane 7 seconds before it exploded over Berlin on April 
29, 1944. Four members of my crew, as close to me as my brother, died 
on that mission and I became a POW for just over 1 year.
    I want to thank you for this opportunity to bring to your attention 
legislation that is of vital importance to a small, but select group of 
American citizens: widows of former prisoners of war, in their 
eighties, and in need of assistance now. I was President of American 
Ex-Prisoners of War Service Foundation for 4 years and I'm pleased to 
be their spokesman.
    POWs have always faced obstacles in filing claims because we had no 
medical records to document our wounds and illnesses upon capture, or 
while in prison camp. The subject of POW medical care is an oxymoron, 
since it was nonexistent unless your wounds were life-threatening and 
too often, even severe injuries were ignored, leading to unnecessary 
fatalities.
    Then, about 10 years ago, this inequity was addressed by the 
Congress and bills began to be passed acknowledging ``presumptives.'' 
The premise was that certain illnesses suffered by POWs, even though 
undocumented, obviously resulted from their confinement and 
maltreatment, therefore, they must be presumed service-connected. For 
example, peripheral neuropathy can be a result of frostbite; irritable 
bowel syndrome can be caused by harsh diet; and PTSD can be provoked by 
the total barbed wire environment.
    My statement will focus on H.R. 156 because its passage is so time-
critical to these survivors of POWs who died on or before September 30, 
1999. Prior to September 30, 1999, a POW must have died of a service-
connected disability, or have been rated 100 percent disabled for a 
minimum of 10 years before his death in order for his spouse to qualify 
for Dependency and Indemnity Compensation benefits (DIC).
    When a bill lowering the qualification period from 10 years to 1 
year became law, it did not retroactively include all those who should 
have become eligible under the new legislation: specifically survivors 
of POWs who died before September 30, 1999. Comprised almost entirely 
of POW widows with an average age of at least eighty, many of these 
unfortunate spouses are existing below the poverty level because under 
the present law, they are not eligible for DIC.
    The purpose of H.R. 156 is: To amend Title 38, United States Code, 
to provide for the payment of DIC to the survivors of former prisoners 
of war who died on or before September 30, 1999, under the same 
eligibility conditions as apply to payment of DIC to the survivors of 
former prisoners of war who die after that date.
    In 2003, based on the number of survivors the VA reported were 
awarded DIC upon the death of a former POW spouse after September 30, 
1999, CBO extrapolated that about 480 survivors would be eligible for 
compensation with the amendment of Title 38. CBO further estimated that 
no more than one-third, or about 160 of those eligible, would apply for 
DIC.
    In October 2004, then VA Secretary Anthony Principi was 
instrumental in adding two new POW presumptives to illnesses which the 
VA considered service-connected: heart disease and stroke. These 
illnesses were presumed to have resulted from the rigors of being a 
POW. Since heart disease ranks as the Number 1 killer in America, 
widows who were previously ineligible to receive DIC under the 10-year 
clause, now became eligible to file if their husbands died of heart 
disease or stroke. Today, 4 years later, that CBO estimated number of 
160 widows has obviously dropped even more, since some of them would 
already be eligible under the new heart disease presumptive and some 
widows, of course, would have passed away in the meantime.
    World War II veterans, at an average age of 84, are dying at the 
rate of about 1,200 per day. Of the nearly 140,000 POWs captured during 
World War II, only 20,000 are now alive. Actuarial tables predict that 
80-year-old females have a life expectancy of almost 9 years. Surviving 
spouses of POWs who died on, or before, September 30, 1999, must not be 
denied this entitlement which can make their lives easier. As a 
National Service Officer, I am saddened because a number of the widows 
I assist have had to resort to food stamps in order to survive. It is 
heartbreaking to see a POW's surviving spouse spend her remaining days 
in destitution.
    In the scheme of things, the amount of funds needed to correct this 
injustice is trivial. Because the number of surviving spouses who were 
denied DIC under the 10-year rule has dwindled over the past 4 years, 
the cost of H.R. 156 is now likely to be less than $1.5 million a year, 
decreasing to about zero by 2015.
    This bill deserves your approval because POW widows cannot survive 
on Social Security. No one will live lavishly on DIC benefits of $1,067 
per month, but to POW widows, it can mean the difference between 
worrying about paying the light bill or the rent, and living out their 
final years without constant anxiety. POWs suffered enough anxiety when 
they were captured while fighting for their country. They would be 
happy to know that their widows were being taken care of. Please, pass 
H.R. 156--in their memory. Thank you.

                                 <F-dash>
                         Statement of Jim King,
             Executive Director, American Veterans (AMVETS)
    Mr. Chairman and Members of the Subcommittee:
    I am pleased to offer testimony on behalf of American Veterans 
(AMVETS) regarding pending benefits legislation before this 
Subcommittee. AMVETS appreciates the Subcommittee's work to ensure the 
Department of Veterans Affairs can fulfill its obligation to provide 
benefits and services to veterans and/or their survivors.
    H.R. 585 would expand the number of individuals qualifying for 
retroactive benefits from traumatic brain injury coverage under the 
Service Group Life Insurance program. The Department of Veterans 
Affairs (VA) Servicemembers' Group Life Insurance Traumatic Injury 
Protection (TSGLI) program is designed to provide added financial 
protection with payments that range from $25,000 to $100,000, to 
servicemembers who have suffered certain traumatic injuries while on 
active duty. Although the insurance program started December 1, 2005, 
benefits are payable retroactively to October 7, 2001, for 
servicemembers and veterans who suffered certain traumatic injuries 
while serving in Operation Enduring Freedom or Operation Iraqi Freedom.
    Mr. Chairman, the purpose and intent of any insurance program is to 
provide some type of financial security for either an individual or 
surviving family members in the event of injury, disability or death. 
When and where deaths or injuries occur are usually not an impediment 
to the distribution of benefits. Service personnel are on duty 24 hours 
a day and 7 days a week. Equally important, service personnel serve 
where they are directed to serve and are not given a choice on how or 
when they will serve. AMVETS believes that the guiding principles and 
purpose that govern Servicemembers' Group Life Insurance or providing 
full coverage regardless of duty location should also be used as the 
basis for administering the TSGLI program. AMVETS supports this 
legislation.
    H.R. 156 would provide survivor benefits to family members of all 
servicemembers who were held as prisoners of war and whose death is 
viewed in the same manner as a service-connected death as outlined in 
section 1318(b) Title 38 U.S.C., and were rated totally disabled for a 
period of no less than 1 year prior to their death.
    Mr. Chairman, this legislation would provide survivor benefits to 
family members of prisoners of war who became rated 100% disabled for 1 
year prior to death. This legislation removes an arbitrary date, 
allowing approximately 850 families to receive benefits they were 
previously denied. AMVETS supports this legislation.
    H.R. 704 would reduce the age from 57 to 55 when a surviving spouse 
of a deceased veteran can remarry and not lose their Dependency and 
Indemnity Compensation (DIC).
    Mr. Chairman, AMVETS supports this legislation. AMVETS believes DIC 
should not be viewed only as a source of income to replace the wage 
that was being provided by the servicemember. DIC is a compensation for 
a loss that was suffered by the survivors, and should continue to be 
paid regardless of the marital status of the surviving spouse.
    Mr. Chairman, this concludes my testimony.

                                 <F-dash>
                       Statement of Sharon Hodge,
 Associate Director of Government Affairs, Vietnam Veterans of America
    Good afternoon, Chairman Hall, Ranking Member Lamborne and 
distinguished Members of the Subcommittee. Thank you for giving Vietnam 
Veterans of America (VVA) the opportunity to offer our comments 
regarding pending benefits legislation that would enhance the lives of 
the men and women serving in the current theater of operations and 
those who have left loved ones behind in previous wars.

H.R. 585, to amend Title 38, U.S. Code, to expand the number of 
individuals qualifying for retroactive benefits from traumatic injury 
protection coverage under Servicemembers' Group Life Insurance.

    P.L. 109-233, the Veterans Housing Opportunity and Benefits 
Improvement Act of 2006, mandated that the Servicemembers' Group Life 
Insurance (TSGLI) be retroactive to October 7, 2001, for members who 
incur a qualifying loss as a direct result of injuries incurred on or 
after October 7, 2001, through and including November 30, 2005, in 
Operation Enduring Freedom (OEF) or Operation Iraqi Freedom (OIF). This 
means that the servicemember must have been deployed outside the United 
States on orders in support of OEF or OIF or serving in a geographic 
location that qualified the servicemember for the Combat Zone Tax 
Exclusion under the Internal Revenue Service Code. However, when 
Congress passed this important legislation last year they did not take 
into consideration that even training for war is a dangerous business 
in itself. Whether or not you are stationed in an active combat zone 
should not exclude a servicemember from this most important benefit. 
Non-battle wounds can range from injuries in vehicle accidents to 
illnesses. As an example, an Air Force pilot was killed last week in 
simulated close air combat over Alaska. Every time a unit goes to 29 
Palms to train in desert warfare someone is seriously injured because 
training for war is sometimes almost as dangerous as war itself.
    Wherever the injury or death of a servicemember occurs, the effects 
on the servicemember's families are the same. And the impact in terms 
of the current fighting force and future demands on the VA are also the 
same. VVA is in favor of removing the restriction on this legislation.

H.R. 156, to amend Title 38, U.S. Code, to provide payment of 
Dependency and Indemnity Compensation to the survivors of former 
prisoners of war who died on or before September 30, 1999, under the 
same eligibility conditions as apply to payment of Dependency and 
Indemnity Compensation to the survivors of former prisoners of war who 
died after the date.

    Current law provides DIC benefits only to surviving spouses of 
eligible POWs who died after September 30, 1999. Before 1999, surviving 
spouses of POWs were eligible for DIC benefits providing the POW was 
rated 100% disabled for a minimum of 10 years prior to the POW's 
passing. Due to unresolved eligibility issues, many POWs passed away 
prior to being considered 100% disabled for 10 years. This problem was 
addressed by enactment of the Veteran's Millennium Healthcare Act of 
1999, which allowed surviving spouses to qualify for DIC benefits if 
their POW spouse was rated 100% disabled for at least 1 year and died 
after September 30, 1999. However, establishment of this date left many 
widows with unresolved cases penalized due to this cutoff. This 
legislation would treat all surviving spouses of POWs equally and grant 
them DIC benefits regardless of when their POW spouse passed away.
    Mr. Chairman, these former POWs, and their families, have clearly 
sacrificed greatly for our Nation. Easing the financial burdens of 
their surviving spouses is a very appropriate means of trying to repay 
this debt. VVA fully supports this legislation.

H.R. 704, to amend Title 38, U.S. Code, to reduce from age 57 to age 55 
the age after which the remarriage of the surviving spouse of a 
deceased veteran shall not result in termination of Dependency and 
Indemnity Compensation otherwise payable to that surviving spouse.

    VVA commends this Committee for previous legislation, which allowed 
retention of DIC, burial entitlements, and VA home loan eligibility for 
surviving spouses who remarry after age 57. The majority of the 
surviving spouses are in fact women who are nearing retirement age, or 
have been retired for some time if they ever worked outside the home. 
In many cases, these women devoted themselves to taking care of their 
spouse who was profoundly disabled, and therefore did not have the 
opportunity to build a career as a result.
    While DIC is frankly inadequate to be able to support an adult in 
most of the country, these spouses deserve DIC to recognize their 
sacrifice and service to their country by means of caring for 
profoundly disabled veterans. We strongly recommend the age 57 DIC 
remarriage provision be reduced to age 55 to make it consistent with 
all other Federal survivor benefit programs, and fully support passage 
of H.R. 704. VVA testified strongly for this when the Congress lowered 
the age to 57, and VVA still believes this is the appropriate age.
    Mr. Chairman and distinguished Members of this Subcommittee, that 
concludes VVA's formal statement. I welcome your comments, and will be 
pleased to answer any questions you may have. Again, on behalf of VVA 
National President John Rowan, the VVA National Board of Directors, and 
our membership, thank you for allowing VVA to appear here today to 
share our views.

                                 <F-dash>
                      Statement of Steve Smithson,
                  Deputy Director for Claims Services,
    Veterans Affairs and Rehabilitation Commission, American Legion
    Mr. Chairman and Members of the Subcommittee:
    Thank you for this opportunity to present The American Legion's 
views on the three bills being considered by the Subcommittee today. 
The American Legion commends the Subcommittee for holding a hearing to 
discuss these important bills.
H.R. 585
    H.R. 585 seeks to amend Title 38, United States Code, to expand the 
number of veterans qualifying for retroactive benefits from traumatic 
injury protection coverage under Servicemembers' Group Life Insurance. 
This bill will enlarge the group of those who, while on active duty 
status from October 7, 2001, through November 30, 2005, suffered a 
traumatic injury and associated covered loss, and under certain 
conditions of service qualified for retroactive benefits payments under 
the Traumatic Injury Servicemembers' Group Life Insurance (TSGLI) 
program (as initially established by Public Law 109-13 in 2005) by 
eliminating the requirement that only those traumatic injuries and 
losses occurring from service directly in Operations Enduring Freedom 
or Iraqi Freedom would qualify for such retroactive benefits. H.R. 585 
would open this group to include all servicemembers on active duty 
status during the retroactive period, regardless of where the traumatic 
injury occurred. The Department of Veterans Affairs (VA) has issued a 
Final Rule to its Code of Federal Regulations, as published in the 
Federal Register of March 8, 2007, that for purposes of TSGLI payments, 
servicemembers did not have to actually be insured under the 
Servicemembers' Group Life Insurance (SGLI) program in order to be 
eligible for this benefit. Therefore, were H.R. 585 to be enacted into 
law as currently presented, all such servicemembers, insured under SGLI 
or not, who suffered a qualifying loss during the stated retroactive 
period, would be eligible for payment of TSGLI benefits.
    The American Legion fully supports the intent of H.R. 585. It has 
always been the position of The American Legion that veterans' benefits 
entitlements should apply equally to all those in service on active 
duty. Military servicemembers serve under the command of their 
respective service departments and it is not their prerogative to 
determine the location of such service and the duties assigned. Such 
service and duties may very well be located well outside a combat 
theatre of operations, but it is military service to the nation 
nonetheless, and the nature of such military service often exposes 
members to hazard of life and limb. The American Legion does not 
support the creation of different classes of veterans for purposes of 
different levels or types of veterans' benefits. We believe, therefore, 
that H.R. 585 should proceed successfully and be enacted into law.
H.R. 704
    This bill would reduce from age 57 to age 55 the age after which 
the remarriage of the surviving spouse of a deceased veteran shall not 
result in termination of Dependency and Indemnity Compensation (DIC) 
otherwise payable to that surviving spouse. The American Legion fully 
supports removing the bar on the payment of DIC benefits to surviving 
spouses who remarry after age 55.
    Public Law 108-83 provided that DIC benefits would not be 
terminated if the surviving spouse remarried at age 57. It is the 
position of The American Legion that the use of age 57 was not based on 
any objective data, but was simply a ``budget savings'' tool rather 
than opting for age 55. The American Legion has continued to support 
legislation to remove the remarriage penalty for those surviving 
spouses age 55 or older who would otherwise have been entitled to DIC. 
This would better align DIC benefits with benefits provided to 
surviving spouses of military retirees under the Department of 
Defense's Survivor Benefit Plan (SBP), which uses age 55, and to 
surviving spouses under Social Security, which uses age 60.
    The American Legion also supports a provision that would allow 
surviving spouses who remarried at age 55 or older prior to the 
enactment of the law, and whose benefits had been terminated, the 
opportunity to apply for reinstatement of benefits. We understand that 
it is the intent to provide the aforementioned individuals the 
opportunity to apply for reinstatement under (d) of this bill and we 
ask that the appropriate technical correction be made in order for this 
to happen. The American Legion also urges the inclusion of a provision 
that directs VA to conduct specific outreach to inform those affected 
by this change in law, and whose DIC benefits were terminated prior to 
the enactment of the law, of the opportunity to apply for reinstatement 
of benefits. We also recommend providing at least a 2-year period after 
the enactment of the law in which those individuals who remarried at 
age 55 or older prior to the enactment of the law, and whose DIC 
benefits were previously terminated, may apply for reinstatement. 
Limiting the reinstatement period to only 1 year is overly restrictive 
and would prevent otherwise eligible individuals from re-establishing 
entitlement to DIC because of missing an arbitrarily imposed deadline.
H.R. 156
    This bill seeks to provide for the payment of DIC to the survivors 
of former prisoners of war (POWs) who died on or before September 30, 
1999, under the same eligibility conditions as apply to payment of DIC 
to the survivors of former POWs who die after that date.
    Under current law, survivors of former POWs who died after 
September 30, 1999, and were continually rated totally disabled due to 
service-connected disabilities for a period of not less than 1 year 
immediately preceding death, are eligible to receive DIC benefits. 
Survivors of former POWs who were continually rated totally disabled 
due to service-connected disabilities for a period of not less than 1 
year immediately preceding death are not eligible to receive DIC 
benefits if the former POW died on or before September 30, 1999. The 
American Legion fully supports this proposed legislation as it would, 
if enacted, eliminate the arbitrary delimiting date currently in place 
and establish eligibility to DIC benefits for survivors of former POWs 
who were totally service-connected disabled for at least a year prior 
to death no matter the date of the individual's death.
                               Conclusion
    Thank you again, Mr. Chairman, for allowing The American Legion to 
present comments on these important measures. As always, The American 
Legion welcomes the opportunity to work closely with you and your 
colleagues on enactment of legislation in the best interest of 
America's veterans and their families.

                                 <F-dash>
             Statement of Vivianne Cisneros Wersel, Member
    Government Relations Committee, Gold Star Wives of America, Inc.
    Mr. Chairman and Members of the Subcommittee, I would like to thank 
you 
for the opportunity to submit testimony on behalf of all Gold Star 
Wives regarding 
H.R. 704. This bill amends Title 38, U.S.C., to reduce from age 57 to 
55 the age after which a surviving spouse may remarry and still retain 
Dependency Indemnity Compensation (DIC).
    My name is Vivianne Wersel and I am the widow of Marine Corps Lt. 
Col. Rich Wersel. My husband's unexpected and untimely death, at age 
43, 1 week after he returned from his second tour in Iraq on 4 February 
2005, was a tragedy for my children, Richard, then age 14, Katie, then 
age 12, and me. I have spent the past 2 years grieving my husband's 
death, helping my children with their grieving, and working to end 
survivor inequities so that we as military survivors can move on with 
our journeys in life. Presently, remarriage before the age of 57 
results in the termination of the DIC benefit for surviving military 
spouses. At my present age and the age of my children, I cannot afford 
to live without my DIC if I remarry before the age of 57. No other VA 
benefit turns with remarriage at 57, but rather at 55. Equity alone 
dictates that DIC should be categorized similarly.
    I have been employed as an audiologist since 1989, yet I have not 
earned a retirement since I had to change jobs with each of the nine 
duty stations we were assigned during our 15 years of marriage. These 
duty assignments resulted in limited part-time positions or some full-
time work in my field. While stationed in South America my career was 
put on hold because audiology is very limited there. My primary job, 
however, was with the Marine Corps as a good Marine Corps wife, 
maintaining family unity and family readiness. There was never a 
question about staying behind when a new assignment arose simply so I 
could continue working to earn a retirement package. The Marine Corps 
was our life; we were a team. I considered myself vested in the Marine 
Corps when I left job after job to follow my husband after we married. 
The Marine Corps is still my family. My husband's pension would have 
been based on his hard work as a Marine Corps officer and also mine as 
a supporting spouse who raised our family when he was so often 
deployed. Now I find myself suddenly alone raising our two children and 
working to end inequities in survivor benefits.
    After I buried my husband, my daughter asked if I would ever marry 
again. I knew even then that I would lose my benefits and could not 
afford it for the sake of my family. I choose to stay alone as 
remarrying would cost me my DIC. It is not fair that a law dictates 
whether someone can remarry and still retain her survivor benefit or 
not. A military widow has given so much and should not be precluded 
from remarrying based on financial circumstances.
    It has been 2 years since my husband's death and I am now out of my 
fog of grief. I reflect on how bizarre it is that anyone should have to 
wait until a certain age to find a partner again and remarry, in other 
words, choose financial security or an emotional one. We should not 
have to choose.
    My children will still be in college when I am 55 and with no 
Social Security, I will still need to provide for them. Losing my DIC 
will have an adverse effect on my family's optimal well-being. My 
husband would never have thought a second marriage would compromise the 
quality of our lives. His advice to me in the event of his death was 
``go straight to the VA because they would care for me and our 
children.'' The quality of life for my children should not be 
diminished simply because of a decision I might make to remarry.
    My personal situation is simply an example. Gold Star Wives of 
America supports legislation which allows widows to remarry at age 55 
without suffering the loss of a survivor benefit. Marital decisions 
often involve consideration of economic consequences and often those 
consequences are different for older surviving spouses who live on a 
fixed income, which includes DIC, to maintain a basic standard of 
living regardless of whether they remarry or not. Those who would 
benefit from this bill are those who are retired or are preparing to 
retire, those living on a fixed income, and those, like me, who have 
foregone continuous careers in which to build their own retirement in 
order to support their military spouses and family. It should not be up 
to the government to provide disincentives to marriage and particularly 
not for widows of those who served their country. The choice to remarry 
is one that should be left to the surviving military spouse. Her 
service to our country has been great even though she was never 
formally sworn into military service. Our government should not make 
this decision for her. It is hers alone to make and should be made 
without penalty.
    I work diligently with Gold Star Wives to assure that our fallen 
heroes' survivors are not left behind or forgotten. H.R. 704 is an 
important piece of legislation which reduces the surviving military 
spouse's remarriage age from 57 to 55 and allows her to continue to 
retain DIC. Please show these survivors you care and will not forget 
their sacrifice. We urge you to do what is right and get this 
legislation enacted into law.
    I wish to thank the Subcommittee for having this hearing and 
allowing me to testify in support of H.R. 704. I am happy to answer any 
questions you may have about this important piece of legislation to all 
of our surviving military spouses.

                                 <F-dash>
                      Statement of Meredith Beck,
           National Policy Director, Wounded Warrior Project
    Mr. Chairman, thank you for the opportunity to testify before you 
today. My name is Meredith Beck, and I am the National Policy Director 
for the Wounded Warrior Project (WWP), a nonprofit, nonpartisan 
organization dedicated to assisting the men and women of the United 
States Armed Forces who have been severely injured during the War on 
Terrorism in Iraq, Afghanistan and other hot spots around the world. 
Beginning at the bedside of the severely wounded, WWP provides programs 
and services designed to ease the burdens of these heroes and their 
families, aid in the recovery process and smooth the transition back to 
civilian life. We strive to fill the vital need for a coordinated, 
united effort to enable wounded veterans to aid and assist each other 
and to readjust to civilian life. As a result of our direct, daily 
contact with these wounded warriors, we have gained a unique 
perspective on their needs and the obstacles they face as they attempt 
to reintegrate into their respective communities.
    I would like to specifically address H.R. 585, introduced by 
Representative Herseth Sandlin to expand the number of individuals 
qualifying for retroactive benefits under the Traumatic Servicemembers' 
Group Life Insurance (TSGLI). One of our finest achievements as an 
organization was the role we played in the creation of this insurance 
program which pays up to $100,000 to severely wounded servicemembers 
for immediate expenses following their injury. WWP is still amazed by 
the speed with which this legislation was introduced and passed and we 
are especially pleased that the program has paid over $200 million to 
injured servicemembers, with an average payment of $67,000 per 
individual.
    Once the original legislation was enacted creating this program, 
the lion's share of the work done on developing and implementing this 
program was by the Department of Veterans Affairs Office of 
Servicemembers' Group Life Insurance as well as by the Department of 
Defense and the contact and claims certifying officials from the 
individual Service branches. WWP cannot speak highly enough of all the 
time and effort that has gone into creating this program, and I would 
like to publicly thank all of the involved agencies on behalf of the 
severely injured servicemembers and their families who, in their time 
of greatest need, have had many of their financial fears allayed as a 
result of these insurance payments. This program has, in most cases, 
become the intended financial bridge from the time of injury until the 
warrior is eligible for VA benefits.
    While WWP is very pleased with the overall implementation of the 
TSGLI program, H.R. 585 would correct one major inequity. As currently 
written, the regulation dictates that those injured after December 1, 
2005, are covered regardless of where their injuries occurred. In order 
for a retroactive injury to be covered, however, it must have been 
incurred ``in Operations Enduring Freedom or Iraqi Freedom.'' It then 
defines ``in Operations Enduring Freedom or Iraqi Freedom'' to mean 
that the servicemember must have been injured while deployed ``outside 
the United States on orders in support of Operations Enduring or Iraqi 
Freedoms or served in a geographic location that qualified the 
servicemember for the combat zone Tax Exclusion under 26 U.S.C. 211.''
    By defining ``in Operations Enduring Freedom or Iraqi Freedom'' as 
such, the regulation has disqualified a number of traumatically injured 
servicemembers from payment based solely on their location at the time 
their injury was incurred. WWP believes that the same criteria that 
apply to prospective injuries should apply to retroactive injuries to 
October 7, 2001. It is inequitable to deny retroactive payments to 
those who have suffered the same grievous injuries based solely on the 
location where the traumatic event took place.
    Without corrective action, brave men and women who were 
traumatically injured after October 7, 2001, but before December 1, 
2005, will continue to be denied the same retroactive payment given to 
their wounded comrades even though the Servicemembers' Group Life 
Insurance for which TSGLI is a rider was made retroactive--brave men 
and women like Navy Seal Toshiro Carrington who was injured in a 
training accident at Camp Pendleton on December 15, 2004. He was 
holding a charge in his left hand when another servicemember 
accidentally detonated it. 
SO 1 Carrington was left with a traumatically severed left hand, a 
severed right tip of his thumb and his remaining fingers all fractured. 
Unfortunately, Toshiro's severe injuries did not qualify him for a 
payment under TSGLI due to the date on which the accident occurred. 
Another servicemember, Seaman Robert Roeder, was injured on January 29, 
2005, when an arresting wire on the aircraft carrier, the USS Kitty 
Hawk, severed his left leg below the knee. Seaman Roeder was on his way 
to the Gulf of Arabia when his injury occurred during flight training 
operations. Although the ship was on its way to the Gulf and the 
training exercises being conducted were in preparation for action in 
either Operation Enduring or Iraqi Freedom, Robert's injury does not 
qualify for payment under the law as written. Robert was hospitalized 
at Brooke Army Medical Center in San Antonio, Texas, for over a year 
and his recovery and rehabilitation has been just as strenuous and 
arduous as it would have been had his ship made it to the Gulf of 
Arabia prior to his injury.
    SO 1 Carrington and Seaman Roeder are not the only wounded 
servicemembers being impacted by this inequity in the regulation. 
Therefore, we applaud Senators Akaka and Craig for their recognition of 
this inequity and strongly urge Congress to quickly act on S. 225 so 
that Seaman Roeder, SO 1 Carrington, and other wounded warriors like 
them will not be deprived of this vitally important insurance program.
    Again, WWP is very pleased with the overall implementation of the 
TSGLI program and is very grateful for all of the hard work that has 
gone into making this program a reality. I cannot overstate how many 
people and families have benefited from this insurance at a time in 
their lives when they needed all the assistance they could get. The 
Wounded Warrior Project is honored to have played a role in its 
creation and I thank you again for giving us this opportunity to 
testify.

                                 <F-dash>
       Statement of Todd Bowers, Director of Government Affairs,
                Iraq and Afghanistan Veterans of America
    Mr. Chairman, Members of the Committee and my fellow veterans, it 
is both an honor and a privilege to be here today. Please let me begin 
by thanking the Committee for your continued support in ensuring that 
our Nation's newest veterans continue to receive the support they have 
rightfully earned. My name is Todd Bowers and I am a Sergeant in the 
Marine Corps Reserves stationed here in Washington D.C. Previously, I 
served in two voluntary tours in Iraq and I am now the Director of 
Government Affairs for Iraq and Afghanistan Veterans of America, also 
known as IAVA. IAVA is the Nation's first and largest organization for 
veterans of the wars in Iraq and Afghanistan. IAVA believes that the 
troops and veterans who have served and are currently serving on the 
front lines are uniquely qualified to speak about the realities of war. 
Veterans are in a position to educate the public and our Nation's 
leaders regarding the health of our military and its implications on 
national security.
    I have been invited here today to discuss three pieces of 
legislation--H.R. 585, H.R. 156 and H.R. 704. All three are directed 
toward benefiting the lives of veterans and, just as importantly, their 
families.
    H.R. 585 expands the number of people who qualify for retroactive 
benefits from traumatic injury protection coverage under 
Servicemembers' Group Life Insurance. Currently, a traumatic injury 
must have happened in the OEF/OIF theater of operations for it to be 
covered. That means that injuries that occur in the line of duty but 
NOT in theater are not covered. My research shows that members of the 
Armed Services have been injured in over 18 countries in addition to 
Iraq and Afghanistan. H.R. 585 is clearly a sensible fix.
    But H.R. 585 raises a larger issue and one that I would like to 
address. The requirement that veterans show the precise source of their 
traumatic injuries is often a daunting task. Many traumatic injuries 
involve closed head wounds that are often difficult to connect to one 
particular event among many. For example, on October 17, 2004, on the 
outskirts of Fallujah, I was shot in the face while conducting a 
patrol. The sniper's round penetrated the scope I was using and sent 
fragmentation into the left side of my face. The impact of the bullet 
was strong enough to throw me backward approximately 3 feet. Though 
this incident may sound severe, I assure you, it was one of the more 
minimal wounds seen in theatre. For this incident, I only received a 
one-page, handwritten piece of paper documenting my injuries. The rest 
of the proof is in the form of metal lodged in my cheekbone. I was 
lucky. Many are far worse off than I am.
    Some of these individuals who may have a more difficult time 
properly documenting and identifying their injuries are those who 
suffer from Traumatic Brain Injuries, the signature wounds of the Iraq 
War. TBI can accumulate if troops are exposed to multiple blasts during 
their deployments. Often, there is little or no physical trace of mild 
to moderate TBI, and the symptoms, such as difficulties with memory or 
emotional problems, are only recognized months or years later. As a 
result, although veterans' advocates believe that between 10% and 20% 
of Iraq veterans, or between 150,000 and 300,000 people, have some 
level of TBI, their injuries often go undiagnosed and untreated. More 
disturbing is the fact that many veterans do not understand the 
importance of documenting any traumatic incident they may have endured. 
I recently spoke to a Marine who was involved in two Improvised 
Explosive Device (IED) blasts while serving in Iraq on his second tour. 
When I asked him if he had any paperwork or documentation regarding the 
incidents, he told me that he thought the military would take care of 
it.
    The most common flags seen when walking the halls of Congress other 
than Old Glory are Prisoner of War (POW) and Missing in Action (MIA) 
flags. These flags represent a deeply held sentiment of the American 
people: We will never forget our brothers in arms who have spent, and 
will spend, long months and years away from their families in order to 
serve our Nation. It is our duty to ensure that we take care of these 
families as if they were our own. H.R. 156 is a step in the right 
direction and I am pleased to see legislation updating the current 
benefits system to include more families of veterans.
    Taking care of families is a vital part of taking care of those who 
have served. Those who make the ultimate sacrifice for our country 
should rest assured that their spouses will be provided for in their 
absence. Benefits given to surviving spouses are paid for in 
immeasurable grief, and represent a small part of the debt we as a 
nation owe to the families of veterans. That is why I am pleased to see 
legislation such as H.R. 704 receiving appropriate attention.
    Again, I thank you for the opportunity to speak before you today 
regarding these very important issues. I am prepared to answer your 
questions to the best of my ability at this time.
    Thank you.

                                 <F-dash>
 Statement of Jack McCoy, Associate Deputy Under Secretary for Policy 
    and Program Management, Veterans Benefits Administration, U.S. 
                     Department of Veterans Affairs
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to testify today on three bills under consideration.
                                H.R. 585
    H.R. 585 would remove the geographic requirement for eligibility 
for retroactive Traumatic Servicemembers' Group Life Insurance (TSGLI) 
benefits. It would extend eligibility for retroactive benefits for 
traumatic injury protection coverage under TSGLI to all members of the 
uniformed services who sustain a qualifying loss from a traumatic 
injury between October 7, 2001, and November 30, 2005, regardless of 
geographic location.
    Section 1032 of Public Law No. 109-13 authorized the payment of 
TSGLI to any servicemember insured under Servicemembers' Group Life 
Insurance who sustains a serious traumatic injury that results in 
certain losses. Under section 1032(c) of Public Law 109-13, TSGLI also 
was authorized for members of the uniformed services who incurred a 
qualifying loss between October 7, 2001, and December 1, 2005, provided 
the loss was a direct result of injuries incurred in Operation Enduring 
Freedom (OEF) or Operation Iraqi Freedom (OIF). Section 501(b)(1) of 
the Veterans' Housing Opportunity and Benefits Improvement Act of 2006, 
Public Law 109-233, subsequently narrowed eligibility for retroactive 
TSGLI to apply only to servicemembers who suffered scheduled losses as 
a direct result of a traumatic injury incurred in the theater of 
operations for OEF or OIF beginning on October 7, 2001, and ending at 
the close of November 30, 2005. Section 1 of H.R. 585 would amend 
section 501(b)(1) by extending eligibility for retroactive TSGLI to 
servicemembers whose injuries occurred between October 7, 2001, and 
December 1, 2005, outside of the OEF or OIF theater of operations.
    VA estimates that enactment of section 1 would result in 695 
additional TSGLI claims and would cost $47.7 million. This estimate is 
based on the assumption that section 1 of this bill would authorize 
TSGLI payments for claims pending on the date of enactment of the 
provision as well as for claims for retroactive TSGLI that were 
previously denied because the servicemember's injury occurred outside 
of the OEF or OIF theater of operations.
    VA defers to the Department of Defense (DoD) on the merits of the 
proposed bill, because DoD will bear the costs associated with its 
enactment.
                                H.R. 156
    Chapter 13 of Title 38, United States Code, currently provides for 
the payment of Dependency and Indemnity Compensation (DIC) to survivors 
of former prisoners of war (POWs) who died after September 30, 1999, 
and who were rated as totally disabled due to service-connected 
disability for at least 1 year immediately preceding death. H.R. 156 
would amend Chapter 13 to authorize payment of DIC to the survivors of 
former POWs who died on or before September 30, 1999, under the same 
eligibility conditions applicable to payment of DIC benefits to the 
survivors of POWs who died after September 30, 1999.
    We regret that due to the short notice we received concerning this 
hearing we do not yet have cleared views and estimates concerning H.R. 
156, but we will be providing them for the record.
                                H.R. 704
    Section 1(a) of H.R. 704 would amend eligibility requirements for 
certain survivor benefits for remarried surviving spouses. Under 
current law, a surviving spouse who remarries is not eligible for DIC, 
medical care, educational assistance, or housing loans based on a prior 
marriage to a deceased veteran unless the surviving spouse remarries 
after age 57 (after age 55 in the case of medical care). Section 1(a) 
of 
H.R. 704 would reduce from 57 to 55 the age after which a surviving 
spouse may remarry without losing eligibility for DIC, educational 
assistance, and housing loans. Section 1(b) would specify that this 
amendment shall take effect on the later of the first day of the first 
month that begins after the date of enactment of this bill or the first 
day of the fiscal year that begins in the calendar year of enactment of 
the amendment. Section 1(c) would prohibit the payment of any benefit 
based on the amendment for any period before the effective date of the 
amendment. Section 1(d) would permit an individual who remarried before 
the bill's enactment and after age 57 to apply for reinstatement of 
benefits before the end of the 1-year period beginning on the date of 
enactment.
    We regret that due to the short notice we received concerning this 
hearing we do not yet have cleared views and estimates concerning H.R. 
704, but will be providing them for the record.
    This concludes my statement, Mr. Chairman. I would be happy now to 
entertain any questions you or the other Members of the Committee may 
have.

                                 <F-dash>
               Statement of Paralyzed Veterans of America
    Chairman Hall, Ranking Member Lamborn, Members of the Committee, 
Paralyzed Veterans of America (PVA) would like to thank you for the 
opportunity to present our views on this important legislation. PVA 
appreciates the efforts of this Subcommittee to address the benefits 
needs of veterans who are currently serving in Iraq and Afghanistan and 
who have previously served with distinction.
                                H.R. 156
    PVA supports H.R. 156, a bill that would provide for payment of 
Dependency and Indemnity Compensation to the survivors of former 
prisoners of war who died on or before September 30, 1999. The current 
statute states the Secretary shall pay benefits for the veteran who was 
a former prisoner of war and their disability was continuously rated 
totally disabling for a period of not less than 1 year immediately 
preceding death. This benefit will be available for the surviving 
spouse and to the children of former prisoners of war who die on or 
after October 1, 1999. It seems fair to extend this benefit to earlier 
years. These veterans may have sustained severe injuries as a result of 
combat action or their subsequent internment. In many cases the spouse 
of the 100 percent disabled former prisoner of war provided the 
required daily care for the veteran 7 days a week for years before the 
death of the veteran. This kept that spouse out of the workplace where 
they could have pursued a career for their own economic survival.
    PVA would also request that Congress require the VA to conduct an 
aggressive outreach campaign to ensure that these spouses of deceased 
former prisoners of war are aware of any change if made to the 
regulations. PVA would like the VA to make their best effort to contact 
all spouses that may qualify for this benefit. We also hope that in 
implementing these changes the VA not place an arbitrary deadline on 
the application process for these potential benefits.
                                H.R. 585
    During initial consideration of the traumatic injury insurance 
rider for Servicemembers' Group Life Insurance (SGLI), PVA expressed 
concerns about the proposal that eventually became law. The legislation 
was meant to help servicemembers who incur a severe disability while 
serving this country to overcome the financial hardship placed on them 
and their families while they are undergoing medical treatment and 
rehabilitation. Our principal concern that servicemembers should not 
have to pay a premium for this coverage remains. We believe that 
helping these severely injured men and women overcome the financial 
strain of their situation is an obligation of the Federal Government.
    However, the traumatic injury insurance has proven beneficial for 
veterans who elected to have the coverage. We support the concept of 
this legislation as it addresses an additional concern that we had with 
the proposal in 2005. We believed then, as we do now, that a veteran 
who incurs a service-connected severe disability that qualifies them 
for this benefit should be able to receive the payment regardless of 
where that disability was incurred. A servicemember should not be 
denied this benefit simply because he or she was not injured while 
serving in Iraq or Afghanistan. We believe that this legislation 
corrects that particular inequity that exists in the current statute; 
therefore, we support this legislation on those grounds.
                                H.R. 704
    PVA has no objection to this bill that would reduce the age from 57 
to 55 years after which the remarriage of the surviving spouse of a 
deceased veteran would not result in termination of Dependency and 
Indemnity Compensation.
    PVA would like to thank you for allowing us to submit an official 
statement for the record on these issues. We consider these very 
important matters and we commend the Subcommittee for addressing them. 
We would be happy to respond to any questions you may have.

                                 <F-dash>
            Statement of Eric A. Hilleman, Deputy Director,
 National Legislative Service, Veterans of Foreign Wars of the United 
                                 States
    MR. CHAIRMAN AND MEMBERS OF THIS COMMITTEE:
    On behalf of the 2.4 million members of the Veterans of Foreign 
Wars of the U.S. (VFW) and our Auxiliaries, I would like to thank you 
for your invitation to testify at today's important hearing on 
veterans' benefits legislation.

H.R. 585, a bill to expand the number of individuals qualifying for 
retroactive benefits from traumatic injury protection coverage under 
Servicemembers' Group Life Insurance.

    The VFW strongly supports H.R. 585. From inception the VFW has 
supported the Wounded Warrior Bill as a way to provide immediate 
financial assistance for severely injured servicemembers and their 
families. This legislation would provide those not included in the 
original legislation a chance to receive equal payment for their 
serious injuries by allowing all injured servicemembers who served 
between October 7, 2001, and December 1, 2005, to be eligible for TSGLI 
payments regardless of where their injuries occurred. We applaud this 
change and agree that all injured servicemembers, those inside and 
outside the combat theatre, should be treated equally when it comes to 
benefits afforded them.

H.R. 704 and H.R. 156 would expand the inclusion of Dependency and 
Indemnity Compensation (DIC) to include more deserving widows and 
addresses some of the inequities surrounding DIC. We fully support 
these proposals.

    H.R. 704 would amend Title 38, U.S.C., to reduce from age 57 to 55 
the age after which the remarriage of the surviving spouse of a 
deceased veteran shall not result in termination of Dependency and 
Indemnity Compensation otherwise payable to that surviving spouse. No 
other federally funded survivorship program, including Civil Service, 
Social Security and Congress' own program, makes a distinction between 
unmarried and remarried surviving spouses. DIC was created to replace 
family income loss due to the servicemember or veteran's death and to 
serve as compensation for his or her death. Our Nation has made a 
promise to our veterans that their families will be taken care of 
should they die for our country, or from a disability related to their 
service.
    In 2003, Congress passed a law that allows survivors who remarry 
after age 57 to continue to receive DIC, but this was not enough.
    We are pleased to see that H.R. 704 lowers the age at which a 
remarried spouse may continue to receive DIC to 55. This change brings 
the benefit in line with the remarriage requirements of similar Federal 
programs. We fully support this change.

    The VFW strongly supports H.R. 156. Current law awards DIC benefits 
to those survivors of former POWs who were continuously rated totally 
disabled for 
at least 1 year prior to death and who died after September 30, 1999. 
Enacting 
H.R. 156 would expand eligibility to include those survivors of POWs 
who died before September 30, 1999.
    The number of former POWs that remain alive since the end of World 
War II is less than 30,000 and a number of these veterans are leaving 
us every day. We believe that those POWs from conflicts prior to 1999 
suffered the same as those who came afterward, and providing a small 
measure of financial relief to their survivors is the right thing to 
do.
    Thank you for this opportunity to present our views before the 
Subcommittee.

                                 <F-dash>
       Statement of Patricia Walenchok McElhaney, Niceville, FL,
              and Member, Gold Star Wives of America, Inc.
    Thank you, Chairman Hall, Representative Buyer, Members of the 
Subcommittee, and my own Congressman, Representative Jeff Miller from 
Florida, District 1. I 
am grateful for the opportunity to submit my statement for the record 
regarding 
H.R. 704. I appreciate the efforts of Representative Gus Bilirakis, 
also a Florida Congressman, to continue his father's efforts to correct 
the injustice to surviving spouses of service-related death by allowing 
us to remarry at age 55. It is right that widows of service-connected 
deaths retain our much-deserved compensation that is paid by the 
Department of Veterans Affairs as an indemnity payment in recognition 
of our tragic loss and sacrifice when our husband and father died 
serving our country. This legislation simply seeks equity with the 
Federal survivor programs that permit remarriage at age 55 as provided 
to civilians and military who did not die of causes related to military 
service.
    I am a member of the Gold Star Wives of America, Inc., and the 
Military Officers' Association of America Auxiliary. I rely heavily on 
these two organizations to keep me educated on current survivor 
benefits.
    In 2003, the Veterans Benefit Act, H.R. 2297, was passed at age 57 
due to limitations of funding and the implied ``promise'' of a first 
step which would be lowered to the age of 55 as the second step. I have 
now waited 4 years for the equity age of 55. I remarried at age 56 and 
1 month, so this ``penalty'' of 11 months has been a bitter pill to 
swallow.
    In 2002, I believe it is important to note that the Department of 
Veterans Affairs expressed its support for enactment of legislation to 
provide DIC payments with remarriage at age 55. Testimony presented by 
Daniel L. Cooper, Under Secretary for Benefits, Department of Veterans 
Affairs, to this very Subcommittee on Benefits, Committee on Veterans' 
Affairs, on Thursday, April 11, 2002, supported enactment of H.R. 1108. 
H.R. 1108, sponsored in the 108th Congress by Rep. Michael Bilirakis, 
Florida, District 9, contained the language of H.R. 704 as introduced 
recently in the 110th Congress by Representative Gus Bilirakis and the 
subject of this hearing today. The Department's support of H.R. 1108 to 
provide equitable DIC benefits with other DoD and civilian Federal 
survivor benefits was contingent on funding to be made available by the 
Congress. The President and the Congress has nearly doubled the funding 
for the Department of Veterans Affairs over these past several years, 
and yet, inclusion of the small amount needed to provide DIC with 
remarriage at age 55 has not been made available.
    I am a widow of a United States Air Force Officer who died from his 
100% service-connected medical disability in 1970. At the time of his 
illness, there was very little help or knowledge made available for 
families in our situation. I am very grateful for the outstanding 
medical care he received from Wilford Hall Hospital in San Antonio, 
Texas. It meant relocating to that city many miles away from family and 
friends back in Arizona who could have given us the help we so 
desperately needed. My husband and I had two very young children for 
whom I became the single caregiver; all the while providing the nursing 
care responsibilities for my husband.
    I took care of him in our home for 5 years during the times that he 
did not require hospitalization. At that time there was no home 
healthcare available from CHAMPUS or the VA. It was a 24/7 job. I was 
never offered ``Aid and Attendance'' or a ``Housebound'' allowance by 
the Veterans Administration as his sole caregiver. I learned about 
those benefits after his death and they were not paid retroactive for 
his circumstances. The burden was on me to discover the benefits; 
certainly not on the DoD/VA employees to provide assistance to apply 
for them. The VA furnished him a hospital bed and bedside commode for 
home use. The Cancer Society would bring me lambskin pads for him to 
lie on. He was on high doses of prednisone which robbed his bones of 
all minerals, proteins and calcium causing them to weaken. The back 
vertebras started to crush. There was not much that could be done. He 
was put in a back brace. The pain got progressively worse. He finally 
reached the point that he could not walk and was bedridden. He 
developed severe bedsores no matter how often I changed his position 
while in bed. His mind deteriorated to the point that he did not know 
me as his wife and did not recognize his children. The prednisone made 
him susceptible to fungal infections contracting cryptococcus 
meningitis and T.B. while in the hospital. All this while, I had him 
home, transporting him to Willford Hall Hospital at least twice a week 
for blood and platelet transfusions. He hemorrhaged often and in the 
end they could not stop the bleeding with the transfusions. He bled 
into his brain on the final day.
    My husband enlisted in the Air Force in 1954. He spent 4 years at 
Nellis A.F.B. Nevada before being accepted into the Aviation Cadet 
program. It was an extremely proud day for all of us and our families 
when he received his commission as a Second Lieutenant in 1959. After 
completing navigator training he was an Electronic Warfare Officer 
flying B-52 missions during the Cuban Missile Crisis from a remote base 
in northern Michigan. In 1963 he was selected to go to pilot training. 
After receiving his wings he was assigned as an instructor pilot. In 
1965 his health problems started and were diagnosed after 7 months of 
testing at Wilford Hall Hospital with a rare bone marrow disease, 
paroxysmal nocturnal hemoglobinuria, thought to be from exposure to the 
chemical benzene during the time he was stationed at Nellis A.F.B. 
There was no other apparent reason as he was a pilot at the onset of 
his illness. When I tried to check on this, I was told there had been a 
fire in St. Louis and his records were lost. My husband survived for a 
period of 5 years with intensive medical care provided by me as his 
sole caregiver at home. I am proud to say he never saw the inside of a 
nursing home! I cannot imagine how much his care would have cost the 
government had I not volunteered to care for him. After his death, I 
learned there was an additional special DIC allowance of $228 per 
month. However, I did not qualify for this additional allowance because 
of the requirement that he have lived 8 years at 100% disability after 
medical retirement. Because of his illness he was prevented from 
working. It was also impossible for me to work outside the home as he 
required too much care. During the years since his death, I have met 
many widows of the disabled retiree who qualify for this additional 
allowance even though their husband did not require this same care and 
they did not physically provide the similar intensive care for their 
100% disabled husband.
    When he passed away I wanted him to have the same quality funeral 
that he would have been given had he still been active duty. I received 
only a very small allowance, so I paid out of our own funds for the 
casket and services of the funeral home. He was provided a gravesite at 
Ft. Sam Houston National Cemetery where he now rests. I became a widow 
alone with the lifelong responsibility of an 8-year-old and 4-year-old 
when I was 29 years old. Not only had I lost my husband, my children 
had lost their father, and their children will never know their 
grandfather.
    In 1996, I made a choice to remarry, giving up my DIC benefits. I 
had developed some severe health problems and I really needed the 
comfort, help, peace of mind and dignity that only a committed 
relationship could give me. After all the years of saving the 
government money with the care I gave my deceased husband, I missed 
getting my DIC benefits reinstated by just 11 months because of the 
compromise age of 57 in H.R. 2297 back in 2003.
    I am very grateful for the years I was married to such a proud 
American. This man even wrote a letter to President Nixon from his 
death bed just 6 weeks before passing. In this letter he tells of his 
deep desire to serve his country. As I sat at his beside that last day, 
I could only repay him with my love, respect, and comfort.
    I respectfully request that you consider H.R. 704 in the interest 
of equity for all military widows who are age 55 with retention of 
eligibility with remarriage. Passage of H.R. 704 is the right thing to 
do!
               NEWSPAPER ARTICLE SUBMITTED FOR THE RECORD
                         Mistreated Casualties
                          The Washington Post
            Tuesday, June 19, 2007;  Editorial Section, A16
    Veterans with psychological wounds are getting shabby treatment 
from the Department of Veterans Affairs.
    JEANS CRUZ, a former Army scout who helped capture Saddam Hussein, 
lives in a bullet-riddled Bronx housing project, addled by nightmares 
about Iraq, voices in his head and the smell of dried blood in his 
nostrils. As Post reporters Dana Priest and Anne Hull recently 
described his situation, Mr. Cruz began cutting his arms and 
extinguishing cigarettes on his skin after returning home from Iraq. 
Mental health counselors characterized him as depressed and anxious, 
and, shortly after he reenlisted in the Army, he was discharged because 
of a ``personality disorder.'' A Department of Veterans Affairs 
psychologist diagnosed post-traumatic stress disorder.
    But when Mr. Cruz applied for disability benefits, Veterans Affairs 
refused, claiming, among other things, that he had not proved that he 
had seen combat in Iraq--this despite his slew of combat awards and 
high-profile recognition. Now Mr. Cruz is barely supporting his family 
on a small income, and he is worried that he will lash out at those he 
loves.
    There are far too many survivors who, like Jeans Cruz, have been 
mistreated upon their return. The intensity of the conflict in Iraq and 
Afghanistan can leave deep emotional scars. Many soldiers are returning 
home with mental wounds caused by traumatic head injuries or with post-
traumatic stress disorder. The Department of Veterans Affairs must care 
for a large quotient of veterans with disabilities that were uncommon 
or little understood decades ago.
    But the military medical establishment has not prepared itself to 
recognize, treat or compensate for these and even more traditional 
ailments. The bureaucratic morass into which Mr. Cruz fell is only part 
of the problem. According to the authors of a recent Institute of 
Medicine report, the department's method of adjudicating disability 
claims and even its terminology are outdated. The report blasted the 
schedule for rating disabilities, a set of criteria for assigning 
disability benefits: Veterans Affairs has no recent evidence that the 
scores veterans get adequately relate to the earnings veterans lose 
because of their disabilities, for example. Nor does the schedule 
reflect contemporary notions of disability.
    The Institute of Medicine stresses, for example, that Veterans 
Affairs should consider more than just how much veterans lose in future 
earnings. The schedule should be retooled to ``compensate for nonwork 
disability and loss of quality of life.'' And, the report argues, the 
department should hire additional staff members to regularly update the 
rating schedule according to current medical practices. Either proposal 
would help the next Jeans Cruz.
    The first thing Veterans Affairs needs to do is simplify the 
adjudication process, with a particular emphasis on easing the burden 
on those with debilitating mental wounds. Next, the department should 
attempt to answer some essential questions. How can it better diagnose 
post-traumatic stress disorder? How can the agency measure ``quality of 
life''? Do its guidelines account for disabilities that limit veterans' 
physical and social functioning outside of work? All of these, and the 
question of cost, should be promptly examined. Then Congress and the 
Bush Administration must act to fund and implement the major changes 
the Department of Veterans Affairs needs.
POST-HEARING QUESTIONS AND RESPONSES FOR THE RECORD, AND ADMINISTRATION 
                                 VIEWS
 Questions from Hon. John J. Hall, Chairman, Subcommittee on Disability
    Assistance and Memorial Affairs, to Jack McCoy, Associate Deputy
  Under Secretary for Policy and Program Management, Veterans Benefits
  Administration, U.S. Department of Veterans Affairs, dated June 19, 
                                  2007
        Legislative Hearing on H.R. 585, H.R. 156, and H.R. 704
    Question 1: To clarify for everyone, would you briefly walk the 
Subcommittee through the process for a soldier suffering a traumatic 
injury seeking to utilize the Traumatic Servicemembers' Group Life 
Insurance (TSGLI) benefits?

    Question 1(a): How does the average claim present itself to the VA?

    Response: TSGLI claims are submitted to and processed by individual 
branches of service (BOS). The Department of Veterans Affairs (VA) will 
generally not see claims unless a BOS TSGLI office requests policy 
guidance on an unclear or unusual case.
    To begin the process, the injured servicemember or guardian needs 
to complete Part A of the TSGLI claims form with his or her identifying 
information. An attending medical professional must then complete Part 
B of the form to describe the nature and extent of the servicemember's 
injuries. The member's BOS TSGLI office approves or denies the claim 
and determines the amount payable. The BOS TSGLI office then submits 
the claim to the Office of Servicemembers' Group Life Insurance 
(OSGLI), the administrative office established by Prudential Insurance 
Company of America, which issues the Servicemembers' Group Life 
Insurance (SGLI) policy. OSGLI pays the claim or releases the denial 
letter based on the branch's decision.

    Question 1(b): What type of medical evidence or documentation does 
the VA require to support a claim and grant TSGLI?

    Response: VA does not make the determination whether to approve or 
deny the claim. The BOS evaluates the medical evidence submitted in the 
application and renders a decision. OSGLI either makes a payment or 
releases a denial letter in response to the BOS's decision.

    Question 1(c): Why must a servicemember survive 7 days from the day 
of the traumatic event to qualify for TSGLI?

    Response: TSGLI was generally modeled after commercial accidental 
death and dismemberment (AD&D) policies, which are riders to life 
insurance policies. Like commercial AD&D riders, TSGLI is not intended 
to be an additional life insurance payment. In the commercial model, if 
an individual is paid an AD&D award and dies shortly thereafter, the 
amount of the AD&D payment is deducted from the life insurance 
proceeds.
    We did not read the intent of TSGLI to include reducing a death 
benefit to a beneficiary; nor did we see the intent to provide an 
additional benefit if a servicemember's death was caused by a traumatic 
event. Therefore, a timeframe between the traumatic event and the date 
of death had to be established.
    The 7-day period was based on a review of data gathered by the 
Department of Defense (DoD) concerning traumatic injuries incurred in 
Operations Enduring Freedom and Iraqi Freedom, which showed 7 days to 
be a representative time to stabilize the injured member and transport 
the member back to the United States following a traumatic injury.
    During this period, the service department pays most if not all 
major expenses that are incurred by an injured member. Once the 
member's condition is stabilized, TSGLI benefits are available to help 
pay for expenses incurred after the initial 7-day period. If the 
insured member dies within 7 days after a traumatic injury, although no 
TSGLI benefit is payable, the basic SGLI death benefit will be paid to 
the beneficiary designated by the member or to other eligible 
beneficiaries.

    Question 1(d): Please explain what TSGLI does not cover.

    Response: TSGLI is modeled after commercial AD&D policies and, like 
those policies, does not cover illnesses or minor injuries. The law 
limits coverage to traumatic injuries and prescribes certain qualifying 
losses.
    Additionally, TSGLI does not cover injuries caused by any of the 
following:

    <bullet>  Attempted suicide.
    <bullet>  Intentionally self-inflicted injury or an attempt to 
inflict such injury.
    <bullet>  Medical or surgical treatment of an illness or disease.
    <bullet>  Willful use of an illegal or controlled substance, unless 
administered on the advice of a medical doctor.
    <bullet>  Injury sustained while in the act of committing a felony.
    <bullet>  Mental disorder or a physical or mental illness or 
disease, unless under very specific circumstances.

    Question 2: Please explain the coordination between the Department 
of Defense and the Department of Veterans Affairs to administer the 
TSGLI program?

    Response: VA has worked to ensure that TSGLI guidelines are 
communicated clearly and that DoD personnel responsible for 
implementing the program are properly trained and informed. VA has 
developed channels of communication with the BOS TSGLI points of 
contact through measures such as the following:

   TSGLI Procedures Guide--The VA provides a detailed procedural guide 
encompassing the entire TSGLI program.

   Regular Conference Calls and Ongoing Guidance--VA insurance service 
and BOS TSGLI points of contact meet regularly via conference call to 
discuss TSGLI issues and provide ongoing guidance to BOS points of 
contact on questions concerning certifying complex individual cases.

   Training and Briefings--VA provided formal training and/or briefings 
to the BOS TSGLI points of contact and medical personnel at various 
military medical.

    Question 3: To date, the TSGLI program has paid over 3,266 cases 
totaling over $206 million with an average claim payment amount of 
$63,158. Is this an expense to DoD? If not, how does the VA pay for 
these claims, through mandatory or discretionary funds?

    Response: All TSGLI costs are paid either by servicemember premiums 
or by DoD. No VA funds are used in connection with the TSGLI program. 
The required funding for the TSGLI program is comprised of three parts:

   Retroactive Costs--The retroactive provision of the TSGLI 
legislation provides that any servicemember who beginning on October 7, 
2001, and ending at the close of November 30, 2005, sustains a 
traumatic injury resulting in a qualifying loss is eligible for TSGLI 
if the loss was a direct result of a traumatic injury incurred in the 
theater of operations for Operation Enduring Freedom or Operation Iraqi 
Freedom. Each BOS pays for the cost of retroactive claims attributable 
to that BOS. The great majority of retroactive claims (under current 
law) have been paid.

   Non-hostile Costs--A premium of $1 per month is charged to each 
servicemember insured under SGLI in order to provide TSGLI coverage. 
This premium is based upon the projected rate at which civilians suffer 
traumatic injury similar to the injuries in the TSGLI schedule.

   Extra Hazards Costs--The law provides that the branches of service 
will pay any excess claims costs above the premiums collected. The 
branches have paid extra hazard funds to VA in fiscal years 2006 and 
2007. During periods where there are no large-scale hostilities it is 
expected that DoD funds would not be needed.

    Question 4: The VA Insurance Division informed the Committee that 
45% of TSGLI claims submitted are disapproved. Would you explain why 
the disapproval rate is so high? Can you explain how this disapproval 
rate compares to similar programs in private industry?

    Response: Although accurate, that statistic masks a major program 
enhancement. The TSGLI legislation provided for payment for specified 
losses such as amputations, loss of vision, hearing or speech, 
paralysis, and so forth.
    VA recognized that there were other traumatic injuries that members 
incur, such as a serious injury to the torso, that would cause members 
to undergo significant recovery and rehabilitation times and cause 
financial hardships. To ensure that these severely injured members 
would be covered by TSGLI, VA uses its regulatory authority to create 
an additional category based on the inability to carry out activities 
of daily living (ADLs) due to a loss directly resulting from a 
traumatic injury other than an injury to the brain. The term 
``inability to carry out activities of daily living'' means the 
inability to independently perform at least two of the six following 
functions: bathing; continence; dressing; eating; toileting; and 
transferring in or out of a bed or chair with or without equipment. The 
amount of TSGLI payable under the schedule depends upon the duration of 
the member's inability to carry out ADLs.
    This new category of loss has allowed payment of more than $112 
million in additional benefits to 2,027 servicemembers. These payments 
account for just over 50 percent of all TSGLI payments.
    ADL loss is a standard used by the commercial industry for their 
disability and long-term care policies.
    About 80 percent of all disapprovals are for claims asserting an 
inability to perform ADLs. There are two reasons for this statistic. 
First, an assessment of whether a servicemember is unable to perform 
the six functions is necessarily subjective rather than objective, as 
in the case of an amputation. Second, the BOS are finding that the 
medical evidence does not support the claimed loss.
    Although generally modeled after commercial AD&D insurance, TSGLI 
is significantly more expansive in its coverage to take into account 
the unique circumstances associated with military service. Because of 
this and other factors unique to commercial policies, we could not 
determine an ``average'' AD&D policy with which to compare TSGLI 
coverage. We are, however, investigating the manner in which commercial 
insurance companies assess an insured's entitlement to proceeds based 
upon inability to perform ADLs.

    Question 5: As the VA works to improve TSGLI processing times and 
have undertaken a ``Year One Review'' what have you learned that will 
help improve TSGLI processing time to speed payments to these 
servicemembers and their families?

    Response: The year one review indicates that the practice of case 
management improves the timeliness of processing before claims reach 
the claims examiners in the branch of service, and the BOS have 
therefore implemented this practice. The review also indicates that 
some TSGLI claims cannot be paid until a member's eligibility for 
combat injury pay is resolved.
    The review also indicates that the need for additional medical 
documentation delays adjudication of TSGLI claims.

    Question 6: With regard to H.R. 156, can VA provide the population 
figure(s) for this bill?

    Response: Data show that approximately 12 percent of prisoners of 
war (POWs) were rated 100 percent disabled and in receipt of 
compensation in May 1999. We assume that 75 percent of POWs were 
married. With this information, we estimate there were 3,560 surviving 
spouses who would have been newly eligible in 1999 for Dependency and 
Indemnity Compensation due to this proposal. Life expectancy was 
applied to this population to estimate the current number of eligible 
surviving spouses in 2008 and beyond.


------------------------------------------------------------------------
                                           FY           Caseload
------------------------------------------------------------------------
                                             2008             1,535
                                             2009             1,403
                                             2010             1,270
                                             2011             1,137
                                             2012             1,008
                                             2013               882
                                             2014               761
                                             2015               648
                                             2016               543
                                             2017               447
------------------------------------------------------------------------


    Question 7: With regard to H.R. 704, can VA provide the population 
figure(s) for this bill?

    Response: In developing population and cost estimates for H.R. 704, 
VA assumed that the intent of Congress was to state age 55 rather than 
age 57 in section 1(d) of the bill. Based on that assumption, there are 
two groups of spouses who would be affected by this proposal: spouses 
in receipt of Dependency and Indemnity Compensation (DIC) who would 
lose benefits if they remarry in the future prior to turning 55 years 
old, and spouses who have lost benefits in the past due to remarriage 
prior to turning 57 years old. Based on available data and assumptions 
about potential claimants, VA estimates that 2,349 spouses will apply 
and be granted DIC benefits in 2008. This change would cost 
approximately $23 million in the first year and $723.2 million over 10 
years.


------------------------------------------------------------------------
                                                             Future
                                     FY    Reopened Cases    Cases
------------------------------------------------------------------------
                                   2008            2,349        506
                                   2009            2,323      1,027
                                   2010            2,294      1,550
                                   2011            2,263      2,080
                                   2012            2,229      2,613
                                   2013            2,192      3,149
                                   2014            2,153      3,686
                                   2015            2,110      4,233
                                   2016            2,065      4,781
                                   2017            2,015      5,329
------------------------------------------------------------------------


    However, if Congress intended section 1(d) to be written as it is 
currently, the table above would only include the ``future cases'' 
column. The first year cost would be approximately $6.9 million and the 
cost over 10 years would be $423.0 million.

                                 <F-dash>
Letter from Hon. Gordon H. Mansfield, Acting Secretary, U.S. Department
    of Veterans Affairs, to Hon. Bob Filner, Chairman, Committee on 
                               Veterans'
 Affairs, dated October 26, 2007, Transmitting Administration's Views 
                                  and
            Estimates for H.R. 704, H.R. 2259, and H.R. 1824

                                U.S. Department of Veterans Affairs
                                                     Washington, DC
                                                   October 26, 2007

The Honorable Bob Filner, Chairman
Committee on Veterans' Affairs
U.S. House of Representatives
Washington, DC 20515

Dear Mr. Chairman:

    I am pleased to provide the views of the Department of Veterans 
Affairs (VA) on the following three bills: H.R. 704, H.R. 2259, and 
H.R. 1824, 110th Congress. These bills were on the schedules of the 
Disability Assistance and Memorial Affairs and Economic Opportunity 
Subcommittees' hearings of June 19 and June 21, respectively. At the 
hearing, the Department stated that we were not able to comment on all 
of the bills on the agenda because we did not have enough time to 
coordinate the Administration's views and estimate costs. We can now do 
so for the introduced version of these bills.
H.R. 704
    Section 1(a) of H.R. 704 would reduce from 57 to 55 the age after 
which a surviving spouse may remarry without losing eligibility for 
Dependency and Indemnity Compensation (DIC), educational assistance and 
housing loans. Section 1(b) would specify that this amendment will take 
effect on the later of the first day of the first month that begins 
after the date of enactment of this bill or the first day of the fiscal 
year that begins in the calendar year of enactment of the amendment. 
Section 1(c) would prohibit the payment of any benefit based on the 
amendment for any period before the effective date of the amendment. 
Section 1(d) would permit an individual who remarried before the bill's 
enactment and after age 57 to apply for reinstatement of benefits 
before the end of the 1-year period beginning on the date of enactment.
    Under current law, a surviving spouse who remarries is not eligible 
for DIC benefits, medical care, educational assistance, or housing 
loans based on a prior marriage to a deceased veteran, unless the 
surviving spouse remarries after age 57 (after age 55 in the case of 
medical care).
    Because the mandatory costs of the bill are not included in the 
President's Fiscal Year (FY) 2008 Budget, we cannot support enactment. 
VA estimates that enactment of H.R. 704 would result in a benefit cost 
of $23 million in FY 2008 and $723.2 million over the 10-year period 
from FY 2008 through FY 2017.
H.R. 2259
    H.R. 2259 would require the Secretary of Defense and the Secretary 
of Veterans Affairs to jointly submit to Congress a plan to maximize 
access to the benefits delivery at discharge (BDD) program for members 
of the Armed Forces reserve components who have been called or ordered 
to active duty since September 11, 2001. The bill would require a 
description of the efforts that would be taken to ensure that services 
under this program are provided at specified locations, including 
locations where servicemembers are separated or discharged from the 
Armed Forces.
    VA believes that this bill is not necessary for a number of 
reasons. First, VA is already committed to working with DoD to produce 
a plan to improve transition assistance for personnel in the National 
Guard and Reserves.
    Also, it is not feasible to offer the BDD program to most National 
Guard and Reserve members. The BDD program is a joint VA and DoD 
program that provides information, benefits and services to 
servicemembers who are within 60 to 180 days of separation from service 
and who wish to file a claim for VA benefits. At least 60 days of 
remaining active-duty time is needed to process a servicemember for 
effective BDD. Major requirements of the program, such as the physical 
examination necessary to determine entitlement to VA pension or 
compensation, present significant logistical difficulties if sufficient 
time is not available. Although the BDD program is available to all 
servicemembers on active duty, including National Guard or Reserve 
members, as well as servicemembers undergoing medical evaluation board 
or physical evaluation board proceedings, most mobilized National Guard 
and Reserve members are released from active duty shortly after they 
return from deployment. Because such members are eager to return to 
their families and civilian lives, they are quickly processed through 
demobilization sites, released from active duty, and returned to their 
respective Reserve or National Guard command. Thus, there is not 
sufficient time to accomplish BDD processing before they are released 
from active duty.
    In addition, all benefits claims from servicemembers who have 
participated in the Global War on Terrorism, to include Operation 
Enduring Freedom and Operation Iraqi Freedom, receive priority 
handling. This includes servicemembers from the Guard and Reserve. 
These cases are permanently tagged to reflect priority status and are 
processed expeditiously. However, veterans who require case management, 
such as those who have sustained a serious injury or illness or have 
lost a body part, do not participate in the BDD program.
    There are no costs associated with this bill because National Guard 
and Reserve members are already provided services at demobilization.
H.R. 1824
    Section 1 of H.R. 1824 would amend Title 38, United States Code, to 
expand the scope of programs of education for which accelerated 
payments of Montgomery GI Bill (MGIB) educational assistance may be 
used, to include programs that lead to employment as an operator of a 
commercial motor vehicle (as defined in section 31301 of Title 49, 
United States Code).
    Under current section 3014A of Title 38, an MGIB-Active Duty 
participant pursuing high-cost courses leading to employment in a high 
technology occupation in a high technology industry has the option of 
receiving an accelerated benefit payment. This optional lump-sum 
accelerated benefit payment covers up to 60 percent of tuition and 
fees. Enactment of H.R. 1824 would lead to a slight increase in the 
number of trainees enrolled in courses within the Heavy Equipment 
Operation industry, which includes commercial driver training.
    Section 2 of the bill would amend section 3015 of Title 38 by 
adding a new subsection (h), to provide specifically that benefit 
payments received by an individual under the MGIB-Active Duty program 
shall not be considered as income for purposes of determining 
eligibility of that individual for education grants or loans under any 
other provision of Federal law.
    The purpose of the existing accelerated payment authority is to 
facilitate training and promote employment in high technology 
occupations in high technology industry based on a demonstrated 
national need for a highly trained and highly skilled workforce in that 
sector of the economy. This bill would constitute a departure from that 
purpose. We are not aware, however, that a similar need exists for 
providing accelerated payment for the proposed commercial driver 
training or that a basis exists to do so to the exclusion of other non-
high technology, high-cost programs. Absent such a demonstrated need, 
as well as identification of cost savings to offset the cost of the 
proposed accelerated payment provision expansion, we cannot support 
H.R. 1824. Further, we note that this bill's provision excluding 
benefits payable under the MGIB from consideration as income for 
purposes of determining eligibility for education grants or loans is 
unnecessary since these benefits are not currently counted as income 
for such purposes.
    We estimate that enactment of the H.R. 1824 provisions expanding 
accelerated payment entitlement would result in a benefit cost increase 
of $578,000 in the first year and approximately $6.1 million over 10 
years.
    The Office of Management and Budget has advised that there is no 
objection to the submission of this report from the standpoint of the 
Administration's program.

            Sincerely yours,
                                                Gordon H. Mansfield
                                                   Acting Secretary

                                  <all>

</pre></body></html>
